<html>
<title> - [H.A.S.C. No. 111-136]THE STATUS OF UNITED STATES STRATEGIC FORCES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-136]
 
              THE STATUS OF UNITED STATES STRATEGIC FORCES

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 16, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                  U.S. GOVERNMENT PRINTING OFFICE
58-228                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    SUBCOMMITTEE ON STRATEGIC FORCES

               JAMES R. LANGEVIN, Rhode Island, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           TRENT FRANKS, Arizona
RICK LARSEN, Washington              DOUG LAMBORN, Colorado
MARTIN HEINRICH, New Mexico          MIKE ROGERS, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
                Bob DeGrasse, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, March 16, 2010, The Status of United States Strategic 
  Forces.........................................................     1

Appendix:

Tuesday, March 16, 2010..........................................    41
                              ----------                              

                        TUESDAY, MARCH 16, 2010
              THE STATUS OF UNITED STATES STRATEGIC FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Strategic Forces.....................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Subcommittee on Strategic Forces...............................     3

                               WITNESSES

Chilton, Gen. Kevin P., USAF, Commander, U.S. Strategic Command..     8
Miller, Dr. James, Principal Deputy Under Secretary of Defense 
  for Policy, U.S. Department of Defense.........................     6

                                APPENDIX

Prepared Statements:

    Chilton, Gen. Kevin P........................................    67
    Langevin, Hon. James R.......................................    45
    Miller, Dr. James............................................    53
    Turner, Hon. Michael.........................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................    95
    Mr. Franks...................................................    96
    Mr. Langevin.................................................    95
    Mr. Larsen...................................................    95

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   104
    Mr. Lamborn..................................................   103
    Mr. Langevin.................................................    99
    Mr. Thornberry...............................................   100
              THE STATUS OF UNITED STATES STRATEGIC FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 16, 2010.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
room 2118, Rayburn House Office Building, Hon. James Langevin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Langevin. Good morning. This hearing of the Strategic 
Forces Subcommittee will now come to order.
    The purpose of today's hearing is to examine the strategic 
posture of the United States and the status of our strategic 
forces, including our nuclear weapons, missile defense systems 
and military space programs.
    These activities, which fall under the jurisdiction of the 
Strategic Forces Subcommittee, also track closely with 
responsibilities of U.S. Strategic Command, or STRATCOM. Thus, 
we are pleased that General Kevin Chilton, the commander of 
STRATCOM, agreed to appear before the subcommittee today.
    Welcome, General Chilton.
    General Chilton has testified before the subcommittee in 
the past, and we thank him for coming back here this morning.
    Dr. James Miller, Principal Deputy Under Secretary of 
Defense for Policy, has also agreed to appear before the 
subcommittee today, and I would like to welcome him to the 
committee this morning as well.
    Welcome.
    Dr. Miller's presence is particularly timely given the 
release yesterday of the Interim Space Posture Review, the 
release of the Ballistic Missile Defense Review last month and 
the pending release of the Nuclear Posture Review (NPR).
    Much has transpired in the realm of strategic forces and 
strategic policy since the subcommittee took testimony on these 
matters last March. On April 5th, 2009, President Obama 
delivered a comprehensive address on nuclear security in Prague 
in which he declared, ``I state clearly and with conviction 
America's commitment to seek the peace and security of a world 
without nuclear weapons.''
    He went on to say, ``As long as these weapons exist, the 
United States will maintain a safe, secure and effective 
arsenal to deter any adversary and guarantee that defense to 
our allies, including the Czech Republic. But we will begin the 
work of reducing our arsenal.''
    On July 9th, President Obama and Russian President Medvedev 
issued a joint statement of understanding for establishing a 
follow-on to the Strategic Arms Reduction (START) Treaty that 
included targets for the number of accountable warheads and 
launchers under a new agreement.
    Last summer, in response to the increasing challenges we 
face in protecting our computers and networks from intrusion, 
Secretary Gates announced his intention to create U.S. Cyber 
Command, or CYBERCOM, as a subordinate unified command under 
STRATCOM.
    On September 17th, President Obama announced his plan for 
strengthening missile defenses in Europe through a Phased, 
Adaptive Approach (PAA) deploying defenses against the threat 
of Iranian ballistic missiles.
    Just a week later, the President revealed that the Iranians 
had been building a covert uranium facility near Qom for 
several years now.
    In December, the START Treaty expired and Presidents Obama 
and Medvedev issued a joint statement saying that the two 
nations would continue to work together in the spirit of the 
START Treaty following its expiration.
    At the same time, the two presidents also expressed ``their 
firm intention to ensure that the new treaty on strategic arms 
enter into force at the earliest possible date.''
    However, while the two presidents talked about this issue 
last Saturday, the New START Treaty has yet to be completed. 
The press reports suggest that it has been delayed by the 
complex technical details involving data exchanges and 
verification as well as the complicated political details 
related to missile defenses.
    On January 12th, 2010, China announced the successful test 
of a ground-based mid-range missile interceptor. This 
technology demonstration has implications not only for Chinese 
missile defense but also for the safety of space systems in low 
Earth orbit.
    On February 1st, the Department of Defense released the 
first Ballistic Missile Defense Review along with the 
President's fiscal year 2011 budget. Notably, the Department 
did not release either the Nuclear Posture Review or the Space 
Posture Review, both of which were required to be released on 
that date as well.
    Now, the Department has informed the Congress that the NPR 
will be delayed until March 1st and that the Space Posture 
Review would not appear until later this summer.
    Yet at the same--at the time, we were promised the early 
submission of the preliminary Space Posture Review and were 
also--and so we are pleased that the Interim Space Review was, 
in fact, released yesterday.
    However, the Nuclear Posture Review still has not been 
submitted and appears to be delayed, if we can believe press 
reports, by the President's deliberations on a few key issues, 
including U.S. declaratory policy; specifically, for what 
purposes might the use--might we use nuclear weapons and 
whether and how many forward deployed weapons in Europe and 
Asia are needed for extended deterrence.
    Well, this morning we certainly look forward to hearing our 
witnesses' perspective on the events of the past year and the 
progress we have made toward addressing the key challenges that 
we face.
    As the witnesses are well aware, the subcommittee has had a 
long record of seeking bipartisan approaches to the complicated 
challenges that we face in the strategic arena. Through this 
hearing, we hope to continue these critical discussions so that 
we may together chart the right strategic path forward for the 
United States.
    So therefore, we look forward to your testimony here today 
and your help in making progress toward that goal.
    So before, though, turning to our witnesses, let me ask at 
this time for my partner in this effort, our ranking member, 
Mike Turner, for any comments that he may have.
    Mr. Turner.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 45.]

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Thank you, Mr. Chairman.
    I would also like to extend a warm welcome to General 
Chilton and Dr. Miller and thank you both for your leadership 
and for your service to our Nation.
    Today's hearing comes amid considerable change in our 
strategic forces policy and posture. We anticipate the delivery 
of a Nuclear Posture Review, NPR, within the coming weeks that 
may significantly alter U.S. nuclear policy.
    According to reports, the U.S. and Russia are near 
completion on a new Strategic Arms Reduction Treaty, START. We 
have seen major changes in missile defense policy, including 
plans for missile defense in Europe. And later this year, we 
expect to see a new national space policy and Space Posture 
Review.
    Meanwhile, we continue to witness disturbing trends in 
foreign strategic forces developments. Of particular concern, 
Iran and North Korea continue very public nuclear and ballistic 
missile programs.
    China is preparing to field a next-generation maneuvering 
ballistic missile and continues to develop counterspace 
capabilities.
    Russia possesses an overwhelming arsenal of tactical 
nuclear weapons and continues to modernize its strategic 
nuclear forces.
    I would like to highlight today a few concerns that I hope 
our witnesses will address here. First, let me start with U.S. 
nuclear policy. The President seeks ``a world without nuclear 
weapons.'' I think we all share this long-term vision.
    But as French President Nicolas Sarkozy said last fall, 
``We live in a real world, not a virtual one.'' The bipartisan 
Strategic Commission similarly observed that it ``would require 
a fundamental transformation of the world political order.'' 
Our national security policies must reflect this reality. To do 
otherwise would be irresponsible.
    It is, therefore, deeply concerning when Administration 
officials and press reports suggest that our nuclear policy 
will center on zero as the policy goal; that the NPR will 
reduce the role and number of nuclear weapons, starting with 
U.S. declaratory policy; and that another round of arms control 
talks will commence after START to further reduce our nuclear 
forces.
    It is unclear what changes in the threat or security 
environment are driving such deep reductions. What is the 
strategic rationale behind this policy?
    Do we expect others like North Korea, Iran, Pakistan, 
Russia and China to give up their nuclear arms once the U.S. 
reduces theirs?
    Will allies who benefit from U.S. extended deterrence 
commitments feel equally assured when the U.S. reduces its 
nuclear deterrent and offers conventional forces as a 
substitute? I hope our witnesses here today can address these 
fundamental questions.
    I was pleased to see a 13 percent increase in this year's 
budget request for the National Nuclear Security 
Administration's weapon and nonproliferation activities.
    It appears that the Administration has embraced the 
Stockpile Management Program established by this committee last 
year and will fund more comprehensive life extension programs, 
warhead safety and security enhancements, and infrastructure 
modernization.
    However, a commitment to the sustainment and modernization 
of our Nation's deterrence capabilities cannot be measured with 
a single year's budget request. As we all know, strategy, 
programs and budgets are derived from policy.
    Though we are seeing a one-year influx of funding, I am 
concerned that a zero policy might lead to less program and 
budget support in the out-years. Will it alter STRATCOM's 
ability to effectively deter potential adversaries and lead to 
greater risk in our strategic posture?
    Second, while there is bipartisan support in Congress for 
European missile defense, that support is contingent upon a 
clear and detailed understanding of the Administration's plans, 
which we have not seen. Ranking Member McKeon and I wrote the 
President last week asking for such details.
    The Phased, Adaptive Approach for Europe and the new 
regional missile defense architectures outlined in the 
Ballistic Missile Defense Review, BMDR, have significant force 
structure and inventory implications.
    However, without a detailed understanding of these plans, 
it is difficult to assess whether the budget is sufficient. One 
thing is clear: demand exceeds supply.
    How will STRATCOM manage these limited assets, particularly 
Aegis ships? Will an increase in missile defense assets for 
Europe result in less protection for other theaters?
    I want to commend the Department on the BMDR and 
restoration of some missile defense funding. It is a welcome 
indication that the Administration took note of the concerns of 
many of us that a top-line increase was necessary to sustain 
our homeland missile defense capabilities, to fund the new 
approach for Europe and expand missile defense inventories.
    I do worry, however, that we are giving up on some 
promising technologies while rushing to pursue others. The 
Airborne Infrared (ABIR), Precision Tracing Space System (PTSS) 
and SM-3 Block IIB are interesting concepts but still unproven 
technologies.
    Meanwhile, the Airborne Laser recently demonstrated a 
successful missile shoot-down. Yet the budget request barely 
keeps it going to support further development of directed 
energy technologies.
    Third, I would appreciate our witnesses' thoughts on space 
and cyberspace. I am particularly concerned about the health of 
our space industrial base and what it portends for the future 
of our national space enterprise.
    For example, NASA's recent termination of the Constellation 
Program will leave DOD to carry the full cost of the solid and 
liquid rocket engine supplier base, which could lead to the 
doubling of program budgets in the out-years.
    Much of the aerospace workforce is nearing retirement. 
Young engineering and technical talent won't stick around to 
build more of the same, nor should we want them to.
    If our Nation is to retain its leadership in space and 
defense technology, then we need a strategic, long-term, 
interagency approach that encourages innovation, invests in 
cutting-edge science and technology, and fosters new design and 
development activities that can transition into mature programs 
of record.
    Any thoughts that you can share on how the Department is 
tackling these strategic challenges would be appreciated, as 
well as your thoughts on export control reform.
    Lastly, if one assumes that our strategic forces 
capabilities are interrelated, if there is a link between 
offensive and defensive capabilities, then logic would say that 
we should increase our missile defenses as our nuclear forces 
decrease and prevent any limitations on those capabilities.
    Such was the intent of Congress last year when we stated 
that U.S. missile defense must not be limited in the START 
follow-on treaty with Russia. I want to reemphasize that point 
today.
    General Chilton, Dr. Miller, thank you again for being with 
us today. You each possess a tremendous amount of expertise and 
insight on our Nation's strategic forces, and our Nation is 
better off as a result of your service. I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 48.]
    Dr. Miller. Mr. Chairman, Mr. Turner----
    Mr. Langevin. Before we begin the testimony, if we could, I 
just want to mention--and welcome members of the Armed Services 
Committee that do not serve on the subcommittee but who are in 
attendance at the hearing: Representative Bishop of Utah and 
Representative Fleming of Louisiana. I want to thank them both 
for joining us this morning.
    And without objection, once each of the members has had the 
chance to ask questions, you will, in turn, be able to ask 
questions.
    But at this time, I believe we are going to turn now to 
General Chilton to begin the testimony. Is that what we agreed 
upon?
    Voice. [Off mike.]
    Mr. Langevin. Fair enough.
    Dr. Miller, then the floor is yours.

STATEMENT OF DR. JAMES MILLER, PRINCIPAL DEPUTY UNDER SECRETARY 
       OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

     Dr. Miller. Thank you, sir. Mr. Chairman, Mr. Turner, 
members of the subcommittee, Representatives Bishop and 
Fleming, I very much appreciate the opportunity to testify 
today on behalf of the Department of Defense on strategic 
issues. And I also want to thank the committee for its strong 
support for the Nation's strategic capabilities.
    It is a pleasure to join General Chilton in discussing 
these issues related to nuclear weapons, missile defense. I 
will say a little bit about combating weapons of mass 
destruction (WMD) as well, as well as space and cyberspace.
    It would be difficult to overstate the importance of these 
issues to the Nation. And each of these has been the topic of 
in-depth study in the Department of Defense over the last year. 
And indeed, some of that study, as was noted, is still ongoing.
    In February, in addition to delivering the Ballistic 
Missile Defense Report to Congress, the Department of Defense 
provided the Quadrennial Defense Review report, which 
emphasized the importance of both combating WMD and improving 
our capabilities in cyberspace and outlined some important 
steps that the Nation needs to take to improve capabilities 
there.
    As the chairman noted, DOD, working with the Office of the 
Director for National Intelligence, recently submitted an 
interim report on the Space Posture Review, and we continue to 
work on a national security space strategy that we intend to 
submit to Congress this summer.
    And as was noted, working closely with the Departments of 
State and Energy, as well as with the National Security 
Council, we are nearing completion of the Nuclear Posture 
Review, and I do expect that we will submit a report to 
Congress within a month.
    Mr. Chairman, you asked me to address in particular nuclear 
issues, missile defenses and space, and I would like to say 
just a few words about each, and I will be brief in this oral 
statement.
    The Nuclear Posture Review will be a foundational document 
for this Administration. It is intended to be a practical work 
plan for the agenda laid out by President Obama in his April 
2009 Prague speech.
    It will provide concrete steps to reduce the role and 
number of nuclear weapons with the ultimate goal--of a world 
free of nuclear weapons while sustaining, as the President said 
in his speech--as long as nuclear weapons exist, sustaining a 
safe, secure and effective nuclear arsenal.
    One of its key aims will be to strengthen deterrence and to 
strengthen assurance of allies and partners, and the report 
will outline a number of specific steps to do so.
    As mandated by Congress, the report will also address U.S. 
arms control objectives, and the NPR in particular has focused 
on the ongoing New START negotiations.
    One of the review's early conclusions was that the United 
States should retain a nuclear triad under a New START Treaty 
comprised of intercontinental ballistic missiles, land-based; 
submarine-launched ballistic missiles; and nuclear-capable 
heavy bombers, and the fiscal year 2011 budget submitted to 
Congress reflected this conclusion.
    Ballistic missile threats, as noted by Mr. Turner, are 
growing both in quantity and in quality, and we expect this 
trend to continue over the next decade or more.
    The Department's first-ever Ballistic Missile Defense 
Review aims to align U.S. missile defense posture with near-
term regional missile threats while sustaining and enhancing 
our ability to defend the homeland against a limited long-range 
attack.
    Broadly, our goal is to ensure an effective defense of the 
homeland against limited missile attacks while creating an 
environment in which the development, acquisition, deployment 
and use of ballistic missiles by regional adversaries is 
deterred and, if necessary, defeated. Strengthening 
international cooperation with key allies and partners in 
Europe, East Asia and the Middle East is critical to achieving 
that goal.
    And as was noted, the President announced in September 2009 
that the Administration would pursue a Phased, Adaptive 
Approach to U.S. missile defenses in Europe, and I am very 
pleased that we have had robust cooperation with our European 
allies for that effort.
    I just want to note a couple of those. As you know, Poland 
committed last year to host a land-based site for the Standard 
Missile-3 or Aegis Ashore which would be deployed by 2018.
    Recently, Romania agreed to host an Aegis Ashore site 
starting in 2015.
    And the Czech Republic continues to have a strong interest 
in missile defenses, and we are discussing how they may be 
involved in the new architecture.
    At the same time, we are continuing discussions with our 
North Atlantic Treaty Organization (NATO) allies about making 
territorial missile defense a NATO mission and about next steps 
to develop and deploy improved capabilities.
    The Administration was clear from the outset about our 
intent to move forward with both a northern site and a southern 
site in Europe for Standard Missile-3, for Aegis Ashore, and 
have worked to build broad support in NATO for this mission. At 
the same time, I want to say today that things went much faster 
than expected, with Romania in particular.
    I understand the interest of Congress in these issues, as 
does the Department of Defense, and want to say quite plainly 
that the DOD recognizes the need to consult more effectively 
with Congress going forward.
    Finally, as discussed in the interim report of the Space 
Posture Review, the space environment is increasingly 
congested, competitive and contested. And to deal with these 
challenges, the Administration is currently revising its 
national space policy.
    This ongoing national-level policy review will seek to 
synchronize the broad U.S. equities in space, and it will span 
national security, science and commerce issues.
    Building from this revised national space policy, the 
Department of Defense and the Director of National Intelligence 
are working now to develop a national security space strategy.
    We aim to complete this effort in June and then address its 
implications for export control and investment in various types 
of capabilities with an aim to principally affect fiscal year 
2012 budgets and forward.
    Our objective is to align the appropriate ends, ways and 
means to help the Nation succeed in what is increasingly a 
congested, competitive and contested space environment, and we 
do look forward to reporting back to the subcommittee and to 
Congress on these and other strategic issues.
    I have a more detailed written statement which I would ask 
to be submitted for the record. And with that, I will look 
forward to joining General Chilton in answering your questions. 
Thank you.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 53.]
    Mr. Langevin. Very good. Thank you, Dr. Miller, for your 
testimony.
    General Chilton, the floor is yours.

   STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Chilton. Thank you. Chairman Langevin and Ranking 
Member Turner, members of the subcommittee, it is a pleasure to 
join you again this year and have this opportunity to testify 
before you.
    And it is also a particular pleasure to join Dr. Miller 
here in this session, having worked so closely with him over 
the past year.
    I am privileged to showcase STRATCOM, which I am so 
privileged to command, these joint teams of achievements, 
discuss our requirements and highlight future national security 
challenges across our diverse and global mission areas.
    U.S. Strategic Command's active duty and Reserve military 
members and civilians and contractors form a superb joint team 
whose dedicated planning, advocacy and operational execution 
efforts advance our warfighting priorities every day.
    We continue to strengthen and sharpen our focus on 
deterrence while at the same time focusing on preserving our 
freedom of action in both space and cyberspace.
    In all of these efforts, we greatly appreciate the support 
of the members of Congress and your staff whose legislative 
investments across our mission areas enable us to deliver 
global security for America.
    Over the past year, we have actively supported the 
Administration's four major defense policy reviews which 
uniquely impacted U.S. Strategic Command, to include the 
Quadrennial Defense Review, the Nuclear Posture Review, the 
Ballistic Missile Defense Review and now the Space Posture 
Review. We also provided analytical and intellectual capital to 
the New Strategic Arms Reduction Treaty, or START, 
negotiations.
    While not all yet completed, these reviews will shape the 
role of our strategic capabilities and define the investments 
necessary to recapitalize and sustain them for the future.
    Their focus areas also highlight U.S. Strategic Command's--
also highlight the emphasis that we put on--and the 
participation we are a part of as the nexus of today's national 
security challenges.
    Global security in general and the United States in 
specific face a myriad of challenges today from expected and 
unexpected corners of the globe, by way of economic and 
political turmoil, non-traditional threats to include 
terrorism, and continuing overseas contingency operations.
    Actors continue to seek the means to challenge the U.S. and 
our allies not only in conventional but also in asymmetric 
fashion.
    U.S. Strategic Command remains committed to conducting 
deterrent, space and cyberspace operations and advocating for 
the capabilities our national leadership and geographic 
combatant commanders need each and every day in the areas of 
missile defense; information operations; intelligence, 
surveillance and reconnaissance (ISR); and combating weapons of 
mass destruction.
    In the deterrence arena, our energetic exercise program 
conducted this past year, called Global Thunder 2009, was 
highly successful and was, indeed, the most extensive nuclear 
command and control and communications field exercise in over a 
decade.
    Our forces' success proved America's well-placed confidence 
in USSTRATCOM's strategic deterrent and demonstrated the 
success of this Command's effort to reemphasize a culture of 
excellence across the nuclear enterprise.
    In space, our acceptance of the Space Situational Awareness 
sharing mission expanded the Command's relationship with 
international and commercial partners toward ensuring a safe 
and responsibly managed space domain.
    Future Space Situational Awareness efforts and space 
investments must continue to build on recent advances, 
including advances made in greater and more frequent 
conjunction or collision analysis to ensure the availability of 
essential space-based capabilities.
    Moreover, the Department of Defense sustained its progress 
in defending DOD information networks by unifying U.S. 
Strategic Command's components for network warfare and global 
network operations by increasing the training for our cyber 
professionals and welcoming the standup of each of the 
services' cyber components.
    We carefully planned this past year for the standup of U.S. 
Cyberspace Command and look forward to the confirmation of its 
first commander.
    Additionally, in the past year, we dramatically expanded 
our military-to-military outreach program and were honored to 
host such leaders as United Kingdom's First Sea Lord Admiral 
Sir Mark Stanhope, Australia's Vice Chief of the Defense Force 
Lieutenant General David Hurley, France's Chief of the Defense 
Staff General Jean-Louis Georgelin, and the Vice Chairman of 
China's Central Military Commission General Xu Caihou.
    All of these meetings and discussions centered around 
strategic deterrence, space, cyberspace, and missile defense, 
and all advanced the dialogue between these countries and the 
United States Strategic Command.
    Although not contained within the DOD budget, I would like 
to mention my support for the Administration's fiscal year 2011 
request for the National Nuclear Security Administration. The 
budget seeks a nearly 13 percent increase for NNSA, designed to 
provide much-needed infrastructure and human capital 
investments.
    I have long advocated for such critical investments, which 
will help keep our stockpile safe, secure and effective for 
future generations. Our deterrence credibility rests on such 
confidence, and I appreciate you and your colleagues' support 
for this request.
    In the year ahead, U.S. Strategic Command will address the 
challenges I mentioned above as we focus on further developing 
our workforce, sustaining a culture of excellence in the 
nuclear enterprise, and integrating our global mission sets.
    U.S. Strategic Command's uniquely global missions support 
national objectives, whole-of-government solutions, and 
enhanced international cooperation.
    Our future success requires investment in the deterrent, 
the standup of U.S. Cyberspace Command, and both expanding our 
awareness and sustaining our capability investments within the 
space domain.
    As we move forward, I look forward to continuing to partner 
with this committee and your staff. And again, thank you for 
the opportunity to be with you here today, and I also ask that 
my posture statement be submitted for the record.
    Thank you, Mr. Chairman.
    [The prepared statement of General Chilton can be found in 
the Appendix on page 67.]
    Mr. Langevin. Thank you, General Chilton.
    Thank you both for your testimony. Before we go to 
questions, just for our guests in the audience, let me just 
read a bit of the interesting bios of both of our witnesses 
here today.
    Dr. Miller was confirmed by the U.S. Senate as the 
Principal Deputy Under Secretary of Defense for Policy on April 
2nd, 2009, and he serves as the principal staff assistant to 
the Under Secretary of Defense for Policy and provides advice 
and assistance to the Secretary of Defense and Deputy Secretary 
of Defense on all matters concerning the formulation of 
national security and defense policy and the integration and 
oversight of DOD policy and plans to achieve national security 
objectives.
    Prior to his confirmation, Dr. Miller, served as the Senior 
Vice President and Director of Studies at the Center for a New 
American Security.
    Previous positions--including serving as Senior Vice 
President and Vice President at Hicks & Associates 
Incorporated; Deputy Assistant Secretary of Defense for 
Requirements, Plans and Counterproliferation Policy; assistant 
professor at Duke University; and senior Professional Staff 
Member for the House Armed Services Committee from 1988 to 
1992--a little plug there for the Armed Services Committee work 
you have done.
    Dr. Miller. Sir, you saved the best for last. Thank you.
    Mr. Langevin. Absolutely.
    General Kevin Chilton is Commander, U.S. Strategic Command, 
Offutt Air Force Base, Nebraska. He is responsible for the 
global command and control of the U.S. Strategic Forces to meet 
decisive national security objectives.
    USSTRATCOM provides a broad range of strategic capabilities 
and options for the President and Secretary of Defense. Command 
mission areas include full-spectrum global strike, space 
operations, computer network operations, Department of Defense 
information operations, strategic warning, integrated missile 
defense, global command operations, strategic warning, 
integrated missile defense--again, global command, control, 
communications, computers, intelligence, surveillance and 
reconnaissance, the combating of weapons of mass destruction, 
and specialized expertise to the joint war fighter.
    General Chilton is a distinguished graduate of the U.S. Air 
Force Academy, class of 1976, a Guggenheim fellow. He completed 
a Master of Science degree in mechanical engineering at 
Columbia University. He flew operational assignments in the RF-
4C and F-15 as a graduate of the U.S. Air Force Test Pilot 
School.
    General Chilton conducted weapons testing in various models 
of the F-4 and F-15 prior to joining the National Aeronautics 
and Space Administration (NASA) in 1987. At NASA he flew on 
three space shuttle missions and served as the Deputy Program 
Manager for Operations in the International Space Station 
program.
    Quite a bio, General.
    So thank you again. Welcome to you both.
    I would like to turn now to questions. It is my intention 
to do two rounds of questions and so we will stick to the five-
minute rule.
    Dr. Miller, if I could, I would like to start with you. 
Last September, President Obama announced his plan for 
strengthening missile defenses in Europe through a Phased, 
Adaptive Approach to deploying defenses in Europe. The PAA, as 
it is called, supplanted the previous administration's plans 
for 10 ground-based interceptors (GBIs) in Poland and the X-
Band Radar in the Czech Republic.
    Now, I am assuming that the Administration performed a 
rigorous analysis of alternatives for addressing the evolving 
Iranian threat and protecting U.S. interests before the 
decision was announced. I would assume that--again, being that 
the case--if so, when can we expect the Department to share 
this analysis with the Congress?
    Dr. Miller. Sir, yes, that is correct. The Department 
conducted a quite extensive analysis of the threat from Iran 
and potentially others to the European theater, and considering 
also the possible contribution of any architecture to the 
defense of the United States homeland as well.
    I believe we have shared a good amount of that analysis 
with the Congress. And I know that the Government 
Accountability Office (GAO) is currently doing a review of the 
decision-making that led up to that. And as part of that, we 
will be releasing information associated with the analysis and 
the decision-making process.
    Mr. Langevin. Okay. So it is a formal report that you will 
be able to release to the Congress that details the analysis?
    Dr. Miller. Sir, we are currently in discussions with GAO 
about which parts of the decision--which parts of the--what was 
a very lengthy decision-making and analytical process--should 
be released and we are committed to providing the information 
necessary for Congress to understand that decision.
    Mr. Langevin. Okay. Well, I clearly think that would be 
helpful to the members of the committee and to the Congress in 
giving greater confidence to the--again, the plan itself and 
the need to supplant the previous administration's previous 
plans on missile defense for Europe.
    So we would look forward to that analysis.
    Dr. Miller. Sir, I could say in open session right now that 
there is no question that Iran in particular has significant 
and increasing capabilities for short-, medium-range and 
beginning to develop intermediate-range capabilities.
    And a fundamental part of the assessment was to recognize 
that 10 interceptors were likely to be woefully inadequate for 
coping with the scale of the type of attack that Iran could 
mount today, let alone in the future.
    And so the ability to adapt the system, to bring it online 
earlier, which we can with Aegis ships, and to be able to adapt 
it over time with a more flexible architecture was really 
fundamental to the decision-making.
    I will also say we looked at the question of the 
contribution of the Phased, Adaptive Approach and the previous 
architecture to national missile defense, and both of them--
both of the architectures shared an important feature, which is 
an early deployment of an X-Band Radar that will give us an 
early look on any attack coming--that could come from Iran 
toward the United States.
    The plan under the Phased, Adaptive Approach is to deploy 
that in 2011, which is earlier than previously planned, so we 
moved that forward to look to improve the capabilities of our 
ground-based interceptors.
    And in addition, we looked at the tradeoff between adding 
the same type of interceptor in Europe that we have in the 
United States, a two-stage versus a three-stage, but 
fundamentally the same interceptor, versus going for a 
different type of phenomenology with ascent-phase intercept, 
which we aim to provide in Phase Four.
    And so the analysis--again, we have--I think we have 
briefed it, but we can certainly share more about it. But the 
analysis, to my mind, suggested very strongly that moving 
assets there earlier to deal with today's threat and with the 
possible future intercontinental ballistic missile (ICBM) 
threat--possible future, but the 2011 deployment gets us 
earlier capability.
    And moving toward a different way of engaging that threat 
through ascent-phase was going to contribute more, both to our 
theater-based defenses and to our national defense. And happy 
to follow up with more details, sir.
    Mr. Langevin. That detail would be very much welcome.
    If I could, continuing on on this topic, it was announced 
that--more recently it was announced--and you have mentioned--
you touched on it this morning--that the Romanian government 
has agreed to base missile defense interceptors, the so-called 
Aegis Ashore system, on its soil as early as 2015 as part of 
the second phase of the PAA.
    Could you describe to the committee, or provide it for the 
record if it is classified, the defended footprint of the SM-3 
Block IB missile system that will be deployed in Romania and 
the threats from Iran and the Aegis Ashore system it will 
defend against?
    Dr. Miller. Sir, I would like to provide that for the 
record, if I can, and provide it in a closed session. We would 
be happy to provide maps showing the estimated footprint for 
the system for each of the four phases of the Phased, Adaptive 
Approach.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Mr. Langevin. Good enough. We would welcome that.
    Then let me also, then, ask could you also describe any 
discussions with NATO that preceded the announcement of an 
agreement with Romania?
    Can you assure this committee that the U.S. will, in fact, 
work with our allies to ensure that we meet NATO's objectives 
as adopted by the North Atlantic Council in April 2009 that 
``any future missile defense system deployed in Europe should 
be part of a comprehensive approach that addresses the most 
likely threats on a prioritized basis''?
    Dr. Miller. Sir, yes. We had multiple briefings with our 
NATO allies prior to the meeting with Romania. As I said, that 
particular meeting resulted in a conclusion more quickly than 
many had expected.
    But those meetings included briefings to the North Atlantic 
Council by the Under Secretary of Defense for Policy, by the 
Assistant Secretary for Global Strategic Affairs. I briefed on 
the progress on the Nuclear Posture Review and made mention of 
it, but didn't go into the same detail as they did.
    And I also believe the Secretary engaged with our NATO 
allies on these issues as well during that period.
    Mr. Langevin. Okay. Thank you, Dr. Miller.
    Let me, if I could, just turn my final set of questions for 
this round to General Chilton.
    General, last summer Secretary Gates announced his 
intention to stand up U.S. Cyber Command as a subordinate 
unified command under STRATCOM. Secretary Gates made it clear 
that CYBERCOM would be the focal point for cybersecurity 
operations within the Department.
    More recently, the standup has been delayed, as we all 
know, by the fact that the designated commander has not yet 
been confirmed by the Senate.
    General, would you update the committee on STRATCOM's 
progress toward establishing Cyber Command? And can you explain 
also STRATCOM's role, if any, in the National Cyber Initiative?
    General Chilton. Sure, happy to, Chairman. Last year when 
the Secretary made the decision to stand up a sub-unified 
command under U.S. Strategic Command, the other thing he asked 
for is an implementation plan.
    And over the months of 2009 we worked very closely with the 
STRATCOM headquarters, with Office of the Secretary of Defense 
(OSD), as well as with our two components, the Joint Task Force 
for Global Network Operations (JTFGNO) and the Joint Functional 
Component Command for Net Warfare to pull together an 
implementation plan for the standup of this new command.
    We delivered that to the Secretary in the fall of last 
year. He has reviewed it and made adjustments to it, and we 
think we have complied with those. But we are holding off on 
the signing and moving forward on the plan until we do have a 
commander assigned for this command.
    I was pleased to see that General Alexander received his 
advance policy questions to address back to the Senate and so I 
am hopeful that an opportunity for him to testify and have a 
hearing will soon arise on the calendar. And then, once we have 
a commander, it will be time to put the implementation plan 
into action.
    I don't want to suggest, though, that we have been standing 
static in this mission area at all. We continue to robustly 
operate the Joint Task Force for Network Ops and Network 
Warfare.
    We put JTFGNO under the operational command direction of 
the Network Warfare Command, so we have already started to 
unify those two mission areas, which I think is exactly the 
right way to provide for a better defense for our military 
networks, which we are chartered to do, and as well as more 
secure operations.
    So I am anxious to move forward in this area. I think it is 
the right thing to do. And I think we will be in a much better 
position to both operate and defend and be prepared to conduct 
military operations in cyberspace in the future as we stand up 
the subordinate command of U.S. CYBERCOM.
    Mr. Langevin. And the National Cyber Initiative?
    General Chilton. I am sorry, sir. In the National 
Cybersecurity Initiative, the United States Strategic Command 
benefitted from investments in certain technologies that I 
believe will help us to do defense in a more real-time fashion, 
rather than waiting until we know our computers are infected, 
and then doing the forensics to figure out the malware and then 
working our way backward up the threat, to actually have some 
real-time--more real-time detection systems employed that will 
allow us to look for threats coming into the networks and head 
them off before they get to our computers.
    So that type of technology is part of the investment 
portfolio in the National Cybersecurity Initiative which will 
support us.
    Additionally, there is a good portion of that initiative 
that supports National Security Agency (NSA), and NSA is one of 
our key intelligence providers for this particular domain. We 
rely on intelligence from all intelligence agencies, from the 
National Geospatial-Intelligence Agency, from Defense 
Intelligence Agency, Central Intelligence Agency, et cetera.
    But NSA particularly is supportive in this area, and so 
plus-ups to their ability to do their mission set also benefits 
United States Strategic Command as well as the Department of 
Homeland Security.
    Mr. Langevin. Are the network defenses primarily designed 
by NSA and given to STRATCOM, or is STRATCOM actually involved 
with designing those defenses?
    General Chilton. A lot of the technology comes to us 
through contracts through NSA, but also Defense Information 
Systems Agency (DISA). You know, DISA is important to us, too, 
because they design and build the networks. And so as much as 
you can design and build in capability for ease of operation 
and defense, that is important as well.
    So they are really--DISA is a major trainer and equipper, 
if you will, of the networks which we operate, and so their 
part in that is equally important.
    Of course, we have no acquisition authority and we do not 
exercise that. We are about requirements and demanding the 
things we need to conduct our mission sets.
    Mr. Langevin. Good enough.
    Then my last question before I turn to the ranking member, 
for both our witnesses, what do you see as the key issues still 
outstanding in the cybersecurity arena?
    Dr. Miller. Late last summer, the Secretary of Defense 
asked us to bring together a comprehensive approach for the 
Department of Defense in dealing with cybersecurity, and we 
have begun to do that, working closely with STRATCOM and with 
others.
    And quite frankly, there is a significant list of issues 
that we need to deal with. It starts with thinking through the 
problem from the perspective of strategy.
    We have begun to do that within the Department, 
understanding that we need to plug into the national effort 
that is now under way to develop a new cybersecurity strategy, 
and the Department of Defense is supporting that effort.
    We are looking at the importance of personnel, of highly 
trained, educated, talented personnel and whether the personnel 
models that we have as a department and within the services are 
appropriate for recruiting and retaining the types of people 
that will be successful.
    We are asking a question of how to accelerate the pace of 
innovation both in the concepts we apply to cybersecurity and 
in the technologies we use.
    We would like to--you know, we are dealing with the 
challenge of Moore's Law and with the rapidly changing 
technology and the--frankly, the rapid innovation of people who 
may try to get into our networks.
    We need to continue to think about how to accelerate the 
pace of technical change and present more of a moving target, 
if you will, to people who might get into our networks.
    And finally, we need--we are looking hard at what types of 
cooperation make sense, what we can do to build on the work we 
already do with the private sector and with other agencies and, 
for that matter, internationally as well. We have begun to 
reach out to some key allies and talk about their thinking and 
capabilities on cybersecurity.
    Mr. Langevin. Very good. Thank you, Dr. Miller.
    General.
    General Chilton. And I would just add that kind of looking 
at it from the deck plate up, the things that we have been 
focusing on in U.S. Strategic Command over the last year and a 
half is--we call them the Three Cs: culture, conduct and 
capability.
    Trying to change the general culture of the way we look at 
our networks in the military--it is not just--when there is a 
problem with a computer, it is not just a technical--or 
technician's problem, it is the commander's problem.
    It should be the focus of every commander in the field, the 
health and status of their networks, just as they are focused 
on the health and status of their people, their tanks, their 
airplanes, their ships, because the networks are so critical.
    So changing that cultural mindset is really important. 
Changing the way we conduct ourselves, providing the 
appropriate training for all of our members in the military who 
touch our networks--each one of them is really a gate guard to 
the networks based on their behavior on their computer.
    So changing their conduct, training them and then holding 
people accountable for their behavior on the network is 
important.
    Operationalizing this domain such that we treat it like 
other domains with operational concepts and orders that allow 
us to be postured to readily protect and defend the networks I 
think are also absolutely essential, and we are working that 
problem hard.
    And I have already mentioned the capability piece about 
technologies that can help us better defend our networks.
    But also, I think in addition to what I mentioned before, 
the development, as we have asked for, in the space domain of a 
common operating picture, situational awareness that we can 
provide our commanders so they can see the health and status of 
the network real-time, they can see attacks developing against 
those networks, then take appropriate action, and then making 
sure we are sharing that information as widely as possible not 
only within the military but with the Department of Homeland 
Security.
    So these are some of the capability areas, too, that we 
will continue to press for and look to advance in the future.
    Mr. Langevin. Very good.
    Well, thank you both. Obviously, the cybersecurity area is 
a dynamic one and one--a threat that is ever-evolving. It seems 
the challenge is to stay one step ahead of our adversaries, or 
the bad guys, if you will.
    And we have our--obviously, our work cut out for us. But 
thank you for your work that you are doing in that area. I am 
going to continue to--this is a particular area of interest to 
me that I will continue to spend a great deal of time on and 
oversight.
    I am also fortunate to have Congresswoman Sanchez here, who 
chairs the Terrorism, Unconventional Threats and Capabilities 
Subcommittee. I know it is an issue of great importance to her 
as well as to many other members.
    But with that, let me turn now to the ranking member for 
his questions.
    And thank you very much, gentlemen.
    Mr. Turner. Thank you, Mr. Chairman.
    I appreciate the chairman's questions. In fact, I am going 
to be following up with you, in effect, on the questions that 
he asked.
    Dr. Miller, when the announcement was made for the 
abandonment of the ground-based interceptors in Europe, many in 
Congress were concerned because it was our understanding that 
it was not a threat-based decision. As you indicated in your 
comments, our ballistic missile threat is increasing, not 
decreasing.
    There is no information that anyone has provided to 
Congress that would show that the threat from Iran is 
diminishing. Nothing has changed in our understanding of their 
intent and their programs or their current technical 
capabilities.
    And the chair asked you when is Congress going to receive 
the information upon which the decision was based in looking at 
the threat from Iran, and you gave an answer that I think we 
need to clarify.
    You said we are currently deciding what to release. And I 
doubt that you are sitting in front of us telling us that you 
are considering whether or not you give the information to 
Congress that Congress is asking, because as you know, when the 
Administration makes a decision and we ask for the information 
upon which it is based, it is the Administration's 
responsibility to provide it.
    So perhaps you could embellish what that answer is in the 
context of the chairman's question of when can we see the 
information upon which the decision was based to abandon those 
ground-based interceptors, which many of us believe are 
essential to protect the United States?
    Dr. Miller. Sir, yes, your summary of what my intent was is 
correct. There were, I don't know, scores to, perhaps, more 
than that, briefings developed by the staff. There is a lot of 
analytical work that was completed by both the OSD staff, joint 
staff working with STRATCOM and Missile Defense Agency.
    There are reams and reams of documents. And quite frankly, 
I don't think it--I don't think it makes sense--I wouldn't want 
to go back through all of them, and what we want to do is 
identify the most important milestone documents in the process 
that identify where an assessment was made and, particularly, 
where senior leadership was engaged.
    And we are looking to do that so that Congress can see what 
the basis of the decision was.
    Mr. Turner. I appreciate that answer. And I know from many 
in Congress, and including the members of this committee, we 
are very eager for that process to be completed so that we can 
review it, because again, all the information--in fact, all the 
testimony that we have had in other hearings--has confirmed 
that the threat is not diminishing from Iran.
    And so how that can be correlated to a decision to diminish 
our missile defense capability is where we are concerned.
    To another question that the chair asked, he asked about 
Romania, and I know a number of us have concerns about a 
unilateral action on part of the Administration in working with 
Romania, as opposed a NATO-ization of a missile defense system.
    Because you know there was significant criticism of the 
last administration for their approach with Poland and the 
Czech Republic. The criticisms were that the bilateral 
discussions were bypassing NATO and were preventing, really, a 
NATO-ization of a missile defense system.
    So we were all surprised when Romania was approached, when 
we know that there has not yet been a NATO-ization. Now, you 
answered the chair that there were a number of briefings with 
NATO when he asked NATO's involvement.
    But I am going to ask you the next step of that. It is my 
understanding that the selection of Romania was not done in 
conjunction with a process with NATO in determining the 
strategic positioning and the needed assets for a joint U.S.-
NATO system, that this is the Administration that decided the 
approach to this with Romania and informed NATO. Is my 
characterization correct?
    Dr. Miller. Sir, the Administration briefed NATO on the 
overall architecture and the requirement in that architecture 
for both a land-based site in southern Europe as well as a 
land-based site in northern Europe.
    There were several options for each of those that would 
ultimately provide the possibility for a territorial--complete 
territorial--defense of European countries and NATO.
    It turned out that Poland was one in the north and, as I 
think we have testified before, the priority was given to 
reaching out to the Poles because of their earlier and 
continued commitment to missile defense. It turned out to be 
that Slupsk, the location we are likely to go to, is a good 
location.
    With respect to Romania, there were several countries as 
well that were possible options, and the United States made 
that clear--the Administration made that clear in our 
discussion with allies.
    It was always going to be necessary to conduct bilateral 
negotiations with the hosting country rather than to try to 
``NATO-ize'' that process, in order to reach closure on that.
    But certainly, our allies were aware of the range of 
possibilities with respect to both the southern side and the 
northern side.
    And I would also add that in considering the missile threat 
and how it relates to the Phased, Adaptive Approach, I believe 
the Phased, Adaptive Approach was based on a recognition that 
the missile threat was both more urgent because it is here 
today and because the United States needs to begin to--needs to 
think about how to protect our forces that are deployed and our 
capabilities to operate, as well, and a recognition that it is 
growing and we need to have the adaptability to modify the 
system.
    A key downside of the former architecture is with 10 GBIs 
and two-for-one targeting SRVs, five missile shots and you are 
out of it. And there is no more capability to be provided. 
Phased, Adaptive Approach is intended to address that 
challenge.
    Mr. Turner. Okay, a couple things. One, you know, 
obviously, the concern with respect to NATO-ization is that, 
you know, our goal to increase our relationships 
internationally, to increase our relationships with our allies, 
and to the extent that they are not brought to the table, 
obviously, there is a communication of value that I think could 
be enhanced if they are more at the table versus informed.
    With respect to the interceptors, you know, obviously, a 
concern that we have with the Phased, Adaptive Approach is that 
many of the systems that are identified by the Administration 
in it are paper systems--they don't currently exist--and that 
the ground-based interceptors that were intended for Poland--
although you indicate their limitation in number, they truly 
exist--would have existed and would have been something that is 
available to us, which takes us to the Phased, Adaptive 
Approach.
    And that is that your evaluative statements, your review of 
the Phased, Adaptive Approach and what its benefits are, is 
something that Congress really isn't able to do right now 
because we don't have from the Administration the Phased, 
Adaptive Approach briefings, information, for us to be able to 
evaluate.
    We can't evaluate it based on its effectiveness and 
compared to other systems or even, too, whether or not the 
Administration is living up to its obligations in funding the 
types of systems and research and development that will be 
necessary to take what is not only unproven systems but non-
existent systems to deployable systems.
    When will Congress be able to receive the Phased, Adaptive 
Approach and be able to review it?
    Dr. Miller. Sir, I had the opportunity to brief this 
committee shortly after the announcement and in that did 
include some maps that showed estimates of coverage. The 
reality is that these are estimates and that the details of the 
architecture will--in terms of the location of the systems--
change those.
    So the ones that I showed to this committee--would have 
been, I guess, last September--will look a little bit 
different. They will still have about the same coverage. They 
will--complete within the later phases the territorial coverage 
of Europe.
    Sir, I offered to come back and provide that briefing in a 
closed session, if we could, at the convenience of the 
committee.
    Mr. Turner. Okay, great, because what we are looking for is 
not just how the system might work. We want what systems you 
are actually proposing. What are the timelines? What is the 
development? What systems are going to have to be purchased and 
acquired? What, of the systems that don't currently exist, are 
there milestones that will have to be achieved in order for it 
to be deployable or to bring it into existence? You know, we 
certainly have seen, I think almost everybody on the committee, 
the zone or scope of where these type of systems might provide 
coverage, but certainly, we are looking for more than just 
that. Dr. Miller, I hope that you can provide it.
    One more question and, General Chilton, I am going to pass 
to you for my second round since we have so many people here, 
and I want to defer and make certain everyone gets to ask a 
question.
    But, Dr. Miller, I don't want to leave our discussion 
without talking about your reference to the President's Prague 
speech and the--I think in your comments you referred to it as 
a `goal' of going to zero. I have heard it referred to as a 
`policy' of going to zero.
    And I am very concerned about that as it goes to--and I 
believe your comments were how it is translated into policy to 
affect the role and numbers of our nuclear weapons.
    Now, I mean, let me tell you, I was a mayor of a community. 
And as a mayor of a community, I look out at the community and 
assess a threat, crime, and look to putting together a plan to 
address that threat, crime.
    My desire for there not to be crime in my community did not 
result in me strategically reducing my police force. I wouldn't 
have attacked crime by saying I am going to reduce my 
deterrence to crime. In fact, I increased police. And we saw a 
decrease in crime.
    Now, we know that the threat of nuclear weapons is actually 
increasing by the number of countries that are both seeking 
and/or possessing nuclear weapons technology. That threat does 
not appear to be decreasing.
    So I am very concerned as we try to translate what perhaps 
should be a stated dream into an actual goal or policy that 
affects both the role and numbers of our strategic deterrent, 
instead of it merely just being, you know, something that we 
are advocating for on the national--on the international stage, 
we are actually looking to our national policy and changing, as 
you said, the role and numbers of our weapons.
    Could you speak to that issue a moment and how that balance 
can keep us safe?
    Dr. Miller. Yes, sir. I will start by noting again that in 
the President's April Prague speech he suggested the 
elimination of nuclear weapons as a long-term goal and noted 
that it might not occur within our lifetimes, that it, indeed, 
is extremely challenging to imagine the situation in which 
elimination of nuclear weapons is possible. It is clearly not 
possible today.
    And the President also said at Prague that as long as 
nuclear weapons exist, the United States would retain a safe, 
secure and effective nuclear arsenal to deter threats against 
ourselves and our allies.
    You see in the fiscal year 2011 budget and our plans that 
follow it a commitment to that, a sustainment to a triad with 
respect to our strategic forces and, as General Chilton and the 
chairman noted, a 13 percent increase in overall funding for 
NNSA to sustain our nuclear weapons infrastructure and 
enterprise.
    So understanding that it is a long-term objective, the 
United States, in my view, ought to continue to sustain both 
its deterrent and the infrastructure required to support that 
over time. And in fact, that has been translated into policy.
    With respect to the goal of zero nuclear weapons, it is a 
goal that almost every president in the past has embraced, 
including Ronald Reagan. It is, I think, generally understood 
to be something that is not on the near-term horizon but 
something that can help guide us as we go forward.
    The United States has an obligation under the Nuclear Non-
Proliferation Treaty to pursue nuclear disarmament. Again, it 
is difficult to foresee the timeline under which that could be 
possible. But to look to reduce the role and numbers of nuclear 
weapons over time, as consistent with not just maintaining but 
strengthening our deterrence posture is, in my view, a very 
reasonable policy goal and one that this Nation can and should 
pursue.
    Mr. Turner. Thank you, Dr. Miller.
    I will save my questions for General Chilton if we are 
doing a second round, since there are so many people who have 
questions.
    Mr. Langevin. Very good.
    I thank the ranking member for his questions.
    We will be now operating under the five-minute rule, and I 
am pleased to turn to Mr. Spratt for a round of questions.
    Mr. Spratt. Thank you both for your testimony.
    Dr. Miller, I wasn't sure he was going to reach the crucial 
points in your past when he was outlining your curriculum 
vitae, and your training here surely has propelled you into the 
position you now hold. You don't need to reply to that. 
[Laughter.]
    Dr. Miller. Sir, I would just say the four years I spent 
here were 10 of the best years of my life.
    Mr. Spratt. [Off mike.]
    Dr. Miller. I learned a tremendous amount. Thank you.
    Mr. Spratt. You made a tremendous contribution here, and we 
are pleased to see you where you are, because we know what your 
potential is.
    Tactical nukes--we haven't discussed them very much, but we 
have discussed the greatest concern we have, and that is that 
nuclear terrorists would get nuclear weapons of some kind in 
their hands, and the likeliest weapon that they would be able 
to lay their hands upon and also utilize would be tactical 
nuclear weapons.
    The arms control talks have largely focused upon the big 
systems that do constitute a daily threat to us, and there are 
lots of issues with respect to tactical nukes--are they stored 
adequately? How many? Do we have a have a good inventory of 
them?
    To what extent are we taking steps with the Russians to 
make this the forefront of our negotiations, because they do 
constitute, in my opinion, a significant part of the non-state 
terrorist threat today?
    General Chilton. And if I could first talk about the----
    Mr. Spratt. Please, yes, sir.
    General Chilton [continuing]. The accountability of them, 
we do have excellent--perfect accountability of our nuclear 
weapons today, sir, and----
    Mr. Spratt. How about the----
    General Chilton [continuing]. And security for our weapons. 
We don't have the insight into the Russian stockpile----
    Mr. Spratt. Yes.
    General Chilton [continuing]. Of tactical weapons that we 
would like to see.
    Mr. Spratt. There have been anecdotal accounts of these 
weapons in insecure locations throughout the former Soviet 
Union. Is there any effort on your part--are you engaged at all 
in the process of trying to get a better, more rigorous count 
of their nuclear--their tactical nuclear weapons and where they 
may be located?
    Dr. Miller. Yes, sir. As you know, since the collapse of 
the Soviet Union, Russia has moved its tactical weapons in 
general back more towards the interior of the country. It has 
improved the security associated with those weapons and reduced 
them relatively significantly.
    Our judgment would be that there is a good distance to go 
both with respect to reductions and security, and that is a--
that has been a point of discussion, as you know, over the--in 
fact, over the years with Russia.
    Mr. Spratt. Is this an agenda item with respect to START?
    Dr. Miller. Sir, it is not an item within the START 
negotiations.
    Mr. Spratt. Is it anywhere a formal item of discussion or 
is it something we just deal with ad hoc from time to time?
    Dr. Miller. It is something that has been a focus of the 
Cooperative Threat Reduction Program, and it is an issue with 
respect to negotiations where, post-START, we would like to 
look towards reductions.
    But as you know, we have been engaged in discussions of 
nuclear security, really, for the last almost two decades with 
Russia.
    Mr. Spratt. Dr. Miller, when you were here on the staff, 
the Ballistic Missile Defense Program included something I 
think then was called Space-Based Infrared System (SBIRS) Low 
and SBIRS High.
    And it has gone through several permutations since those 
days, but it is still not a deployed system. In fact, it has 
taken on a different configuration. It is a space surveillance 
system today, I believe. But clearly, if it works as intended 
and is designed, it enhances missile defense.
    Could you give us an update on where the latest rendition 
of SBIRS lies?
    General Chilton. Right, sir, I can take that. The----
    Mr. Spratt. Yes, sir.
    General Chilton [continuing]. SBIRS High program, which is 
being managed by the United States Air Force--its latest 
schedule for first launch of the geosynchronous satellite, 
which will replace our Defense Support Program constellation, 
is scheduled for the end of this year.
    And that will be a welcome first launch of this capability. 
Today we have in the highly elliptical orbits already airborne 
the sensors--two of the sensors that will be part of the 
geosynchronous belt as well. They are performing exceptionally 
well, so that is a good news story. But we look forward to that 
first launch of the SBIRS High geosynchronous.
    SBIRS Low, as you pointed out, sir, has changed names and 
moved from the Air Force into the Missile Defense Agency as an 
experimental program. There is two satellites--Satellite 
Tracking Surveillance System they are called now. They are not 
for space surveillance.
    They are, as you described, infrared satellites to support 
missile defense-type operations. And they are going through 
their test and checkout now to see the utility of them for 
potential future architectures in support of missile defense.
    Mr. Spratt. Thank you very much.
    I have a couple more questions, but my time has expired. I 
will come back on the next round.
    Thank you.
    Mr. Langevin. I thank the gentleman.
    The chair now recognizes Mr. Franks for five minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank both of you for being here.
    You know, General, I never want to miss the opportunity to 
say a special word of thanks to people such as yourself that 
have given their lives to this cause. Because you do your job 
so well, a lot of the rest of us don't have to worry like we 
perhaps should on an issue of this kind of gravity.
    Let me, if I could, add my voice to both the ranking member 
and the chairman related to the missile defense issue in 
Europe.
    I think Mr. Spratt pointed out a point that I have made on 
a number of occasions here, that my greatest concern for at 
least the immediate short-term, and what--I mean in the next 
year or two or three--threat to this country is terrorists 
gaining control or access to a nuclear capability. And he is 
exactly right, a tactical nuke is probably the thing that is 
most likely.
    But it seems that sometimes we forget the connection. My 
concern--and I hope that it will be part of your report to us, 
Dr. Miller--what rationale went into the concern of trying to 
work ourselves into Iran's calculus as to whether or not to 
actually become a nuclear nation.
    I think their intent is clear, but they have a great many 
concerns out there. Israel, our own response--there is a lot of 
things that speak against them moving forward here. But one of 
those things would have been the ability to have met that 
threat the day that it became operational.
    And a lot of us are very happy with the idea of having 
additional Phased, Adaptive Approach capability, but we are 
concerned about not having the ground-based system in Europe in 
time to be a part of Iran's calculus, because I think that by 
the time we have the ability to truly do what the ground-based 
system would--will be able to do, they will already become a 
nuclear-armed nation.
    And I think that all other issues at that point might have 
to fall off the table. So that is just a commercial. I hope 
that that will be part of the information that we receive.
    General Chilton, in your testimony last year before this 
committee you said, ``Within the nuclear enterprise, the U.S. 
stockpile requires the most urgent attention. Without action, 
our current weapons are not indefinitely sustainable. We 
mitigate that risk today along with the risk from an inability 
to respond through strategic surprise only by maintaining more 
weapons than we would otherwise need.''
    And I think you were absolutely right. We do need to do 
that. But in light of the current Administration negotiating 
with Russians on the follow-up to START, which may 
significantly reduce our nuclear stockpile, a significant 
reduction in our inventory concerns me, particularly if it 
doesn't accommodate to concerns that you raised in your 
testimony last year.
    So what types of programs and what type of support would be 
required to sustain or maintain our stockpile, in your mind, as 
a professional, in your judgment, that would maintain those--
meet those concerns without abandoning the approach of 
maintaining more weapons than we would ``otherwise need''?
    General Chilton. Thank you, sir. Fundamental to that is an 
investment in the nuclear enterprise infrastructure. To have a 
first-class nuclear deterrent, you must have a first-class 
plutonium production capacity and uranium production capacity.
    And the investments in this budget that start to improve 
the infrastructure at Los Alamos National Laboratory as well as 
at Oak Ridge are absolutely fundamental to enabling the 
capabilities that I have talked about that we need in the past.
    Additionally, part of the focus of the budget increase is 
to attract the quality people that we are going to need for the 
future and hire the young people into the enterprise to make 
sure that we can sustain the stockpile for the future.
    And lastly, we need to continue to move out on the W76 
production, get that up to full rate production, so that we can 
complete that by 2017. Today, because of the issues with 
infrastructure, we are only capitalized to handle one weapon at 
a time. So it is a serial--we have to approach our problems 
serially. Hopefully we will fix that in the future with the 
investments.
    But given the reality for the next 10 years until that can 
be achieved, it is important to get the W76 done so we can move 
on to the next weapon, which needs life extension attention, 
and that would be the B61.
    So the investments in these areas are absolutely critical 
to follow that path that I outlined before.
    Mr. Franks. Can I throw one last question to Mr. Miller 
here?
    Secretary Gates assured this committee that the START 
negotiations with Russia would not be linked to missile defense 
reductions for this country. Do you continue to assure us of 
that as of today?
    General Chilton. Yes, sir.
    Mr. Franks. All right.
    Thank you, Mr. Chairman.
    Thank you both.
    Mr. Langevin. I thank the gentleman.
    Mr. Larsen is now recognized for five minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    General, welcome back, and a couple of questions. Can you 
just go back to the nuclear infrastructure? Can you tell us 
what in the budget--what the budget says about year 2012 and 
about Chemistry and Metallurgy Research Replacement (CMRR) that 
gives you confidence about the nuclear weapons facilities 
infrastructure and its ability to support a capable deterrent?
    General Chilton. Sir, I would like to send that over for 
the record, the specifics of that. It is in the NNSA budget, 
and as we have looked at it, it is the start of exactly what I 
believe we need to do as far as recapitalizing both those 
facilities.
    But I would like to take that for the record and make sure 
we get you the exact numbers, how they are proceeding.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Mr. Larsen. Yes, please do that.
    Dr. Miller, can you address that from your end of things?
    Dr. Miller. I would also like--sir, would like to take it 
for the record, give you the exact numbers. I will say that 
this was a focus of early work in the Nuclear Posture Review, 
and the decision was taken to move forward with both of these, 
both of these facilities, in parallel.
    [The information referred to can be found in the Appendix 
beginning on page 94.]
    Mr. Larsen. Great.
    General, in regard to space policy, there is obviously 
concerns about other space-faring nations, China in particular, 
usually, and sometimes Russia. Are we headed towards--with 
regards to space policy, are we being driven by a goal of 
dominance in space, of control of space, or access to space?
    General Chilton. Sir, I would defer the policy question to 
my colleague here who is in charge of that.
    But I can give you a war fighter's perspective----
    Mr. Larsen. Yes.
    General Chilton [continuing]. If I could.
    Mr. Larsen. Yes.
    General Chilton. From a U.S. military perspective, it is 
clear we are dependent on space for our military operations 
today. My observation of other countries in the world is that 
they are growing more and more dependent as well on space 
because they see the advantages of utilizing space in both our 
precision munitions and also our ability to globally 
communicate and move information around.
    So in the future, I have no doubt in my mind that we will 
be challenged. Our forces will be challenged. Future 
adversaries will seek to deny us the ability to use the 
advantages we have in space. And that, from a military 
perspective, is something we should anticipate and prepare for.
    Mr. Larsen. Okay.
    So then, Dr. Miller, what does that mean for what drives 
the policy: dominance, control or access?
    Dr. Miller. Sir, the access to space is fundamental to day-
to-day military operations, as the general suggested. And in 
fact, it is accurate to say that our dependency as well as 
others' is increasing there.
    One of the things that we were focused on very heavily in 
the ongoing review of strategy is what should be the United 
States' deterrence posture with respect to space. And this is 
dealing with the--not just the reality that it is congested, as 
I said before, but also increasingly contested.
    We are looking at a number of elements. We start with the 
resilience of our space-based capabilities. We look at the 
requirement to hedge against the possibility of the loss of 
some of those capabilities both with respect to the ability to 
conduct operations in a degraded space environment but also be 
able to provide capabilities from other domains, so--for 
example, air breathers for both ISR and possibly for 
communications relays.
    And then part of the deterrence posture has to be to 
consider how we would respond to various types of actions taken 
against our space assets. And we have begun to work through 
that problem relatively systematically.
    I think that we will have a good bumper sticker, if you 
will, for the objective. But the goal is going to be to assure 
access to space and to ensure that we as a military and as a 
country are able to continue to operate and to fulfill the 
requirements that space provides for the warfighter and for our 
economy and for our society.
    Mr. Larsen. Well, we will look forward to the space policy 
and the--and, for that matter, the NPR as well. I look forward 
to all the reviews that are due, and delayed, getting up here.
    Dr. Miller. Me, too.
    Mr. Larsen. Us more so.
    General, you are in charge of the Capabilities Based 
Assessment on Electronic Warfare, and I wouldn't be--you know, 
it wouldn't be fair for me to sit here and not take any of my 
time to talk about Electronic Warfare.
    So can you give me an update on where STRATCOM is on the 
Capabilities Based Assessment on Electronic Warfare and what we 
can expect to see as a deliverable this year?
    General Chilton. Yes, sir. It was about a year and a half 
ago that Admiral Keating came forward to the Joint Chiefs and 
STRATCOM to express this concern about what he perceived as a 
lack of attention in the electronic warfare area, and STRATCOM 
was chartered to go off and do an Electronic Warfare 
Capabilities Based Assessment, which the Joint Information 
Operations Center did for us and completed this past year.
    Our goal is always to get that done in time to inform the 
budget that has just been submitted to the Congress this year, 
and I think we achieved that.
    You will see plus-ups in the acquisition plans for the 
Growler, the F-18 Growler, as well as investments for 
sustainment of the Marine EA-6B and an addition of an Air Force 
Compass Call aircraft to this budget.
    Where I would describe we are, Congressman, now is we have 
analyzed and understand our capability shortfalls, defining 
requirements and advising the budget, and I can see that 
continuing to go forward. And it will be important for us to go 
forward here because I think we got to where we were a couple 
years ago by lack of attention in this area.
    And I think, also, the exigencies of the fight we were in 
in Iraq and Afghanistan--suddenly we started to see 
interference between various elements of the services bringing 
in Electronic Warfare to Counter-Improvised Explosive Device, 
for example, so maybe that interfered with the Comm system from 
another service, or maybe even in service.
    So a better focus on integrating these capabilities as we 
bring them forward is something we are going to have to keep 
our eye on.
    Mr. Larsen. Right. Well, thank you.
    Thank you, Mr. Chairman.
    Mr. Langevin. I thank the gentleman.
    The chair now recognizes Mr. Lamborn for five minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General Chilton, it is good to see you again.
    And my question is what, or who, is the responsible agency 
for missile defense training? And what joint requirements have 
been established for such training? And has STRATCOM assessed 
the need or the overall existence of training as it stands now 
to identify possible shortcomings?
    In my understanding, it is sort of scattered and diffuse 
right now. What is your assessment? And is there a responsible 
agency at this time?
    General Chilton. Thank you, Congressman. The responsibility 
for organizing, training and equipping belongs to the services. 
With the accelerated time frame and the way that we rolled out 
missile defense as quickly as we did, a lot of the 
development--sort of the organization and development of the 
systems was in MDA, the Missile Defense Agency.
    And so now what we are seeing is transfer of those 
capabilities over to the services. All of the various 
capabilities in the missile defense arena have been assigned to 
various services, I would say with the exception of the 
Command, Control, Battle Management and Communication (C2BMC) 
function, which is still yet to be assigned.
    So as Terminal High Altitude Area Defense (THAAD) goes 
forward, as Aegis goes forward, the Army will organize, train 
and equip THAAD. The Navy will organize, train and equip Aegis. 
The Navy has already taken on Sea-Based X-Band Radar, that 
system, to do that function, to organize, train and equip that 
radar platform.
    And so we see these all transferring over to the services, 
and they will have the responsibility for training the forces, 
to provide them to the regional combatant commanders to execute 
those weapon systems.
    Mr. Lamborn. So it is fair to say that there is no overall 
joint training at this time.
    General Chilton. Not a formal joint organization that is 
doing training. That is not to suggest that our operators are 
not trained in their systems. They are today.
    Mr. Lamborn. Oh, sure.
    General Chilton. But the responsibility for long-term 
training, growth of the force, recruitment, school sets, et 
cetera, will be the responsibility of the services.
    Mr. Lamborn. Okay. Okay, thank you.
    And, Dr. Miller, I would like to take a step back and ask 
more of a broader strategic question. Last year, the 
Administration justified cuts to the Ground-based Midcourse 
Defense (GMD) System because the long-term threat was said to 
be ``slower to develop than previously estimated.''
    However, since then, we have all become aware of 
significant threat developments in North Korea and Iran's long-
range missile programs.
    At what point would the Department reevaluate either its 
reductions to homeland defense and, specifically, cutting the 
ground-based interceptors from 44 to 30, or to consider 
accelerating the Phases Three and Four of the Phased, Adaptive 
Approach?
    What has to happen before we will take those steps now that 
we see what is happening more with Iran and North Korea?
    Dr. Miller. Sir, that was a question that was looked at in 
some detail in the Ballistic Missile Defense Review, and you 
are absolutely correct that there have been some developments 
over the last year with respect to both North Korea and Iran 
and their capabilities and the programs and activities that 
underlie them.
    The Department will continue to assess the requirements 
associated with ballistic missile defense, including the GMD 
system.
    One of the things that the Secretary of Defense did in 
order to hedge our position was to go ahead and finish off the 
silos at Missile Field 2 at Fort Greely so that, in the event 
that the threat does emerge in greater quantity than we 
currently would anticipate, we are able to respond relatively 
quickly by adding additional missiles. They would come from the 
test program if that were necessary.
    With respect to accelerating any Phased, Adaptive Approach 
and the possibility of accelerating SM-3 Block IIA and IIB, as 
you know, the IIA is just very early in its development at this 
point, and the IIB is a program that is just about to--just 
really getting under way.
    I think at this time it would be premature to talk about 
accelerating them. We have got some important milestones for 
SM-3 IIA in the next couple of years. And at that point, it 
would be possible to answer that question with more data.
    Mr. Lamborn. Okay, thank you.
    And along a similar line, some of us are concerned about 
cuts in the resources for--Operationally Responsive Space. In 
two years now, that has been cut by 59 percent, and just 24 
percent of that was this year.
    So we are concerned about that, given what is happening 
with China's capabilities, for instance, and shooting down its 
own satellite. So do you share our concern about those budget 
cuts for Operationally Responsive Space?
    General Chilton. Sir, I don't at this point. I think the 
Operationally Responsive Space Organization Office, in general, 
has made great progress along the lines which I think are 
important, and that is developing the key enabling 
technologies, concepts of operations, investments in the things 
that would enable a responsive space program.
    There are three phases. We broke it into three requirements 
in STRATCOM: Tier 1, 2 and 3, Tier 1 being what can we do 
faster and better with what we have today on orbit, and that, I 
think, has matured quite well.
    Tier 2 is a little more difficult, and that is, how do you 
build the infrastructure and the systems and put them in place 
so that you could rapidly launch, either to augment in crisis 
or replenish in time of war, your satellites on orbit.
    And of course, Tier 3 was to--how could you put a system in 
place that would allow you to quickly implement new 
technologies or new needs that might arise along the way.
    Fundamental to that is launch systems, common buses, common 
interfaces, et cetera, and I think the funding is supporting 
that quite well. We saw some increases required because the 
follow-on to the first four TacSats was Operationally 
Responsive Satellite-1, which is a program that is moving 
forward to be launched.
    But you can expect to see a bump-up in that funding 
requirement and then a bump-down, and so long as we see that 
steady funding to support the enabling technologies, I am 
comfortable.
    Mr. Lamborn. Thank you.
    Mr. Langevin. I thank the gentleman.
    All of the members of the subcommittee have had their 
chance to ask the questions in the first round, and I now turn 
to Mr. Bishop for an opportunity to ask questions. He is a 
member who is a member of the full Armed Services Committee.
    Mr. Bishop. Thank you. Thank you, Mr. Chairman. I 
appreciate being invited back to the subcommittee on which I at 
one time did serve, a long, long time ago.
    Both Dr. Miller and General Chilton, once again, thank you 
for being here.
    Dr. Chilton, I appreciated your written testimony, even 
though I only cared about pages 10 through 12, but those three 
pages were great.
    Let me ask you four questions that deal with the industrial 
bases, if I could. Let me just give them to you out there. And 
if I have time I would actually like to talk about some of your 
comments about uranium development.
    But the first four questions are based on the fact that 
last year was the 50th anniversary of the ICBM. And as you said 
on page 10, it is still the most responsive and cost-effective 
leg of the triad, which I agree.
    I am concerned, though, that the Department of Defense and 
Air Force may be taking the ICBM for granted, in the way it 
sustains its long-term financial support.
    Specifically, in fiscal year 2011, only $46 million was 
allotted to solid rocket motors for the Minuteman III, which 
will produce three motor sets, even though the industrial base 
has said they need to do six to maintain the warm line 
facility.
    In contrast, the Navy funds 12 motor sets for their D5 warm 
line. Now, what really worries me is the Air Force in fiscal 
year 2012 only has $10 million for that line and in fiscal year 
2013 and beyond, it is zero. So the first question is, 
obviously, do you have an opinion on how many motor sets for 
Minuteman III you really need to sustain the solid rocket motor 
industrial base. And since there seems to be a disconnect 
there, how do you solve that one?
    Number two goes into another area which is closer to you, 
with your background obviously having been in space. We asked 
both Secretary Gates and Donley if they had been consulted by 
NASA before they came up with their naive decision to cancel 
Constellation, and they answered in the negative, although the 
Pentagon has sent us two reports and a letter from the Under 
Secretary of Acquisition talking about the significant negative 
impact on the military side even a slowdown of Constellation 
may be.
    And it goes into what Mr. Lamborn was asking that, you 
know, if you don't have the industrial base and you want to 
reevaluate GMD, you may not have the ability to do it. So 
question number two is, did any high-level NASA officials talk 
to you or USSTRATCOM about the impact to the industrial base?
    Number three, if you would react to--I don't know if it is 
General Payton or General Kehler. I think it was General Kehler 
who last week testified over in the Senate that there is a 
potential of at least doubling the cost to the Air Force of 
future propulsion for the Evolved Expendable Launch Vehicles 
(EELVs) if, indeed, the industrial base is harmed in some way.
    And the fourth one is how important is the solid rocket 
motor industrial base to our national defense, and how are you 
at STRATCOM involved with NASA and the Administration today in 
trying to address that industrial base issue which Secretary 
Donley did say was a concern that they had to address somewhere 
in the future when he was in front of the full committee?
    And if you can get through all of those, I have one on 
uranium, but we will see what happens, okay?
    General Chilton. Thank you, sir. I will give it my best 
shot. First of all, United States Strategic Command and our 
component, Air Force Space Command, are paying close attention 
to the ICBM, the health of that force.
    We are trying to make the--advocate for and make sure the 
appropriate investments are made to sustain that capability 
through 2030, and we are seeing those investments start to come 
in to enable that currently.
    With regard to the industrial base, I have raised concerns 
about that in the past, and it is not just for--I would point 
out, not just for solid rocket motor propulsion technology and 
production, which is important, but I think, writ large, it is 
appropriate for us to look at industrial bases for all of the 
things that we need to conduct military operations, to include 
large aircraft production, whether it be tankers or airlift or 
bombers, to include space satellite productions, all of those 
things.
    Those are important that we, every now and then, pause and 
look at those. And Secretary Carter in Acquisition, Technology 
and Logistics (AT&L), I know, is taking these issues very 
seriously and looking at them.
    I don't have an opinion on what is adequate to sustain the 
industrial base in the solid rocket motor area, but I think 
analysis needs to be done to do that. The Navy and the Air 
Force had really two different approaches to their solid rocket 
motor programs. The Air Force was, buy them all at once and end 
the production. The Navy was to keep a warm line going.
    The startup of a warm line for the Air Force this year is 
actually a change to the way they had done business in the 
past, and can no doubt assist the industrial base. But I don't 
have a good answer for you on whether or not--I don't have the 
knowledge base to assess whether that is adequate or not to 
support it.
    With regard to NASA, I was not consulted with regard to the 
cancellation of the Constellation program before it was 
announced.
    And with regard to EELV costs, I think General Kehler is 
the right person to talk to this. From an organize, train and 
equip perspective, Air Force Space Command runs the programs 
that support access to space and launch, and so I would be at 
peril in arguing with his assessment of what the future costs 
might be.
    And lastly, I think kind of circling back as well, the--any 
decision made on--by the part of NASA on how they would proceed 
forward with their needs for solid rocket motors certainly 
needs to be taken into the calculus of AT&L as they look at the 
broader industrial base and our needs for solid rocket motors 
for the strategic deterrent.
    Mr. Bishop. Thank you, General. I have got 10 seconds and I 
will finish this up. I would appreciate for the record an 
analysis of what you are going to do with the warm line if, 
indeed, you go from 46 to 10 to zero million in maintaining a 
warm line and, indeed, if the three that are in there for this 
year--and the industry says you still need six to maintain the 
warm line. That is a disconnect. I would appreciate for the 
record if you could provide that.
    And I also appreciate very much your answer to those other 
questions, and we will talk about how Department of Interior's 
canceling of some of our industrial--our development of uranium 
in northern Arizona impacts you later on.
    I yield back, sir.
    General Chilton. Thank you, sir. And we will take those for 
the record.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Mr. Bishop. Thank you, sir.
    Mr. Langevin. I thank the gentleman.
    We will now turn to our second round of questions for those 
members who have further questions.
    Let me turn to another issue that is of concern to me, and 
that is our management of our weapons stockpile. As both 
witnesses well know, last year Section 3113 of the National 
Defense Authorization Act for Fiscal Year 2010 created the 
Stockpile Management Program.
    The statute contains five objectives, which I am sure you 
are well aware. Increase the reliability, safety and security 
of the nuclear weapons stockpile. Two, further reduce the 
likelihood of the resumption of underground nuclear testing. 
Three, achieve reductions in the future size of the nuclear 
weapons stockpile. Four, reduce the risk of an accidental 
detonation. And five, reduce the risk of a weapon being 
diverted to a terrorist.
    Now, the statute also contains three limitations. First, 
any changes to the stockpile must be made to achieve the 
objectives of the statute.
    Second, any changes must remain consistent with basic 
design parameters by including, to the maximum extent feasible, 
components that are well understood or are certifiable without 
the need to resume underground nuclear weapons testing.
    And third, any changes must use the design certification 
and production expertise resident in the nuclear complex to 
fulfill current mission requirements of the existing stockpile.
    So my question to you, General Chilton, is whether you are 
comfortable with both of those objectives and limitations 
contained within the statute. In particular, do you believe the 
United States can achieve its nuclear deterrence mission while 
limiting changes to those that ``fulfill current mission 
requirements to the existing stockpile''?
    General Chilton. Chairman, I am very comfortable with the 
objectives of the Stockpile Management Program and with the 
statement you just made with regard to--I need no new military 
capabilities today for the weapons that are required for 
providing the strategic nuclear deterrent for the United States 
of America.
    And I think the recommendations are prudent that we ought 
not to develop changes that would necessitate testing, since 
that is our goal, is not to test.
    On the other hand, we should not constrain our engineers 
and scientists in developing options on what it will take to 
achieve the objectives of the Stockpile Management Program, and 
let them bring forward their best recommendations for both the 
President and for the Congress to assess as to what is the best 
way forward.
    Mr. Langevin. Very good.
    Dr. Miller, did you have any comments?
    Dr. Miller. Sir, my short answer is yes, the objectives 
make good sense, and that the Nuclear Posture Review report 
will describe, in part, how the Department of Defense and 
Energy will move forward in meeting the guidelines of the 
Stockpile Management Plan.
    Mr. Langevin. Very good. Well, Dr. Miller, then my question 
to you is how the current Administration interprets the 
statutory guidance.
    And as you know, the bipartisan Congressional Strategic 
Posture Commission identified a continuum of options that might 
be used to manage the stockpile, that continuum being 
refurbishment, reuse and replacement.
    Further, the commission recommended that decisions 
concerning the management of each weapon should be made on a 
case-by-case basis within the basic limitation that the weapons 
should not be designed to accomplish new missions.
    With that in mind, do you expect that the Nuclear Posture 
Review is going to limit options for managing the stockpile 
along the continuum described by the bipartisan strategic 
commission?
    Dr. Miller. Sir, I would like to say that that has been a 
central--an important question of discussion and of analysis in 
the Nuclear Posture Review, and what I would like to do is come 
back and brief or pre-brief the results of that review to the 
committee.
    Mr. Langevin. Very good. I would welcome that, and other 
members would as well.
    With that, I will turn to the ranking member for a 
question.
    Mr. Turner. Thank you, Mr. Chairman.
    General Chilton, then turning my questions to you, getting 
back to this issue of our deterrent and how to strengthen our 
deterrent, you know, many people are very concerned that when 
you lessen the numbers of overall weapons, that it doesn't 
strengthen but weakens the overall deterrent.
    There are those that advocate that conventional weapons 
have a role to play as a deterrent. And obviously, you know, 
there are those, including myself--I am very concerned that the 
tradeoff between conventional and strategic weapons do not play 
the same role as a deterrent.
    Could you speak for a moment as to whether or not 
conventional weapons could be substituted as a deterrent?
    General Chilton. Certainly, sir. First of all, with regards 
to the numbers, as numbers decrease, I think it is instructive 
to examine why we have the numbers we have and what is the 
principal driving force, particularly in the deployment of our 
strategic weapons.
    And it has been carried over from the Cold War period, 
looking at Russia's threat to the United States with their 
capability and deterring that. And so as numbers go down in the 
Russian arsenal, you know, we start feeling more and more 
comfortable bringing our numbers down, which is why NPR and 
START, et cetera, are so closely intertwined together as we 
move forward.
    So I think that is an important context to take when we 
start looking at total numbers of deployed strategic weapons 
anyway.
    With regard to conventional weapons, I think there is a--
there is no doubt that conventional strength can be a deterrent 
to misbehavior, so you can deter perhaps an invasion, let's 
say, by North Korea of South Korea by a strong conventional 
posture of both U.S. and South Korean conventional forces on 
the peninsula. And I think we have been successful in deterring 
in that fashion in the past.
    However, we have to be careful when we start talking about 
one-for-one substitutions of conventional weapons for nuclear 
weapons, because when it comes to the deterrence mission--not 
the warfighting mission necessarily, but the deterrence 
mission--the nuclear weapon has a deterrent factor that far 
exceeds a conventional threat.
    And so we have to be very careful in our discussions and 
dialogue on this. Are we talking about conducting warfighting 
operations or deterrence operations when we start looking at 
these options?
    That said, when we start looking at Prompt Global Strike 
and from a conventional perspective, I look at that as an 
additional weapon in the quiver of the President to give him 
options in time of crisis today in which he maybe only has a 
nuclear option for a timely response.
    And so I am an advocate for having a Prompt Global Strike 
capability as an additional weapon set. But the connective 
tissue between that and the one-for-one exchange for a nuclear 
deterrent--I am not quite there.
    Mr. Turner. I think, perhaps in even both of your comments, 
the concerns with respect to the space industrial base and how 
it is supported were reflected--the committee and its members 
certainly have concerns.
    Could you tell us, you know, your concerns and what we need 
to be doing to strengthen the competitiveness and the future of 
our space industrial base and, really, how critical that is in 
supporting our future capabilities?
    General Chilton. Sir, I believe our space industrial base 
is absolutely critical, as I mentioned, as well as our solid 
rocket industrial base and an aircraft production industrial 
base, for our mission sets.
    Last year in my testimony I raised the issue of 
International Traffic in Arms Reductions (ITAR) not because I 
am an expert on ITAR but because I had heard enough 
conversations in the space community of--that it seemed logical 
that we should take a close look at that, because there was 
debate as to whether that was helping us or hurting us in a 
broader sense with regard to our industrial base.
    And I am happy to see that the Department is starting to 
take a look at those regulations along with the State 
Department to see--to have a healthy debate and discussion on 
what is the best thing forward to ensure we preserve our 
industrial base to provide the capabilities we know we will 
need in the future.
    And there is quite a bit of policy involved in that as 
well, so I will turn it over to Dr. Miller.
    Dr. Miller. If I could just add very briefly, export 
control reform is a very high priority of the Secretary of 
Defense. We have had a number of high-level inter-agency 
meetings on this.
    And last week on March 11th the President gave a speech to 
the Ex-Im Bank, Export-Import Bank, in which he talked about 
long-term goal of--a goal of increasing our exports 
substantially. He also noted in that speech that the Secretary 
of Defense would be giving a talk within the next couple of 
weeks on export control reform. And that is, indeed, the case.
    It is a priority. It is important for the space industrial 
base. And it is also--has, obviously, broader implications as 
well.
    I would just add that we want to think about--as we go 
forward with our national security space strategy, we want to 
think about the appropriate role of the private sector in 
providing both the assets and the services in some space 
mission areas. And we will be looking hard at the appropriate 
balance there.
    Mr. Langevin. Mr. Spratt is now recognized for five 
minutes.
    Mr. Spratt. I thought that Mr. Larsen would raise the 
matter of the ABL, the airborne laser, but he didn't, and I am 
curious as to know what is your assessment of its potential in 
light of the recent feasibility test that indicated it may be 
feasible. And what remains before we can consider this a 
deployable system?
    Dr. Miller. I will go first on this one. The concerns about 
the ABL were not--that led to its--to the restructuring of the 
program in fiscal year 2010 were not about the technical 
abilities of the laser but, really, centered around the 
operational concept and the ability of the platform to survive 
in a realistic threat environment, and for us to affordably 
procure enough of them to provide effective missile defenses 
relative to other options.
    Sir, I think the future on laser capabilities is more 
likely to be in solid state, and we are learning things from 
the ABL program about that. That is now part of our technology 
effort. And I expect we will see that move forward 
substantially over the coming several years.
    Mr. Spratt. Another question. Reading quickly both your 
testimonies while you were testifying, I didn't notice anywhere 
any reference to something called a Replacement Warhead Program 
(RRW). Is there still such a program ongoing?
    Dr. Miller. Sir, there is no such program under way. I will 
say that I just discovered yesterday that the Air Force 
apparently inadvertently had a line in its budget submission 
that said RRW. It had all zeroes, but it is--that program has 
been terminated since, I believe, fiscal year 2008. And there 
are no plans to bring it back.
    Mr. Spratt. Towards the end of your testimony, you 
indicated that things were happening so rapidly in the cyber 
world that you needed--you are--at least to some kind of 
extraordinary procurement authority to waive the ordinary time-
consuming procedures of procurement.
    Could you elaborate on that? And are you asking us to do 
something to give you a special dispensation from the rules so 
that you can quickly respond to developments in that world?
    Dr. Miller. Sir, no, I am not at this time asking for any 
additional acquisition authority on the part--on behalf of the 
Department--an observation that with the rapid cycling of 
technology that we are often challenged, given how our 
acquisition system works typically, to be able to innovate.
    And what we will be looking at as part of our strategy 
development is not just the possible changes to acquisition, 
which you would then--we would then request changes if 
necessary to Congress, but also how we can get innovation to 
happen more quickly.
    Some of the changes we most need may be with respect to 
software rather than any hardware that has to be procured.
    Mr. Spratt. General Chilton, in your testimony, you 
indicated that talking about rebuilding or refurbishing the 
nuclear production complex--you mentioned, first of all, Y-12 
at Oak Ridge. And then you mentioned Los Alamos.
    Were you referring there to the possibility that building 
TA-55 would be the production source for plutonium pits in the 
future?
    General Chilton. It is the CMRR, the investment at Los 
Alamos that I was referring to, and that is--and that details 
what we will provide from the NNSA on what exactly their 
fundings will go into there, sir, the Chemistry and Metallurgy 
Research Replacement facility there.
    Mr. Spratt. Would you give us in a wrap-up where we stand 
on the START negotiation? To what extent are the Russians 
proving to be cooperative and----
    Dr. Miller. Sir, with recognition of--that this is an open 
forum and those are ongoing negotiations, I do think it is fair 
to say that over the past several weeks and the beginning of 
the new year there were some bouncy patches in the 
negotiations.
    I think there has been substantial progress over the last 
couple weeks and, in fact, very substantial progress last week 
at the negotiations in Geneva. I think it is realistic to think 
now about concluding a treaty within the next several weeks.
    It does not mean that that is going to be done. It is still 
the subject of negotiation. But the differences have narrowed 
substantially over the last week or so.
    Mr. Spratt. What is the range of likely deployed systems 
you are negotiating, numerically?
    Dr. Miller. Sir, the last range that was discussed publicly 
was between 1,500 and 1,675 nuclear weapons, and then a very 
wide range with respect to delivery vehicles, between 500 and 
1,100. That range is, needless to say, much narrower today in 
the negotiations.
    And because it is the subject of ongoing negotiations, I 
would prefer to answer in closed session to be any more 
precise.
    Mr. Spratt. That is fine. Thank you much.
    Mr. Langevin. Very good. I thank the gentleman.
    Before turning to Mr. Franks for the next question, I am 
going to turn the gavel over to Chairman Spratt right now as I 
depart, and want to thank both Dr. Miller and General Chilton 
for your testimony and for your great service to our Nation.
    Thank you for the work you are doing.
    Dr. Miller. Thank you, Mr. Chairman.
    General Chilton. Thank you, Mr. Chairman.
    Mr. Langevin. With that, the chair now recognizes Mr. 
Franks for five minutes.
    Mr. Franks. Well, thank you again, Mr. Chairman.
    Gentlemen, while we are waiting on the ratification by our 
partners in Czech Republic and Poland to begin the Phased, 
Adaptive Approach for missile defenses in Europe, you know, it 
is clear that the first phase, 1A, was scheduled to be 
implemented by 2011; the second phase, 1B, by 2015.
    But if you look at the numbers of interceptors we are 
buying--and I know this point has been made before, but the SM-
3 Block IB inventory buy in 2011 includes only eight additional 
SM-3 Block IB interceptors.
    And of course, one of the critiques of the former Missile 
Defense Plan in Poland and Czech Republic was that it was 
expected to only cover 75 percent of our European allies by 
2013.
    So, Dr. Miller, I will direct my first question to you. How 
does the Phased, Adaptive Approach compare, coverage-wise, by 
the percentage of allies supported by--I will say 2013, but you 
can add additional timelines there? How is it covering us as 
opposed to the ground-based system?
    Dr. Miller. Sir, I don't have the precise numbers, and it 
will differ by phase. It expands from Phase One to Two to Three 
to Four, and the most significant coverage does come in the 
later phases.
    What I will say is we can come back in a closed session and 
I will not just have the sort of lay-down but those numbers as 
well.
    I do want to note with respect to the Standard Missile-3 
that we are currently coming toward the end of procurement on 
the Standard Missile-3 Block IA and in the transition phase 
over to the IIB--I am sorry, to the Standard Missile-3 IB.
    Mr. Franks. Right.
    Dr. Miller. And consistent with our approach of essentially 
fly before you buy, that the Department made a decision not to 
ramp up this year in fiscal year 2011 substantially the SM-3 
Block IAs, but just the numbers that we are looking to buy SM-3 
IB deliveries--324 by fiscal year 2017.
    And once we have gotten to this development of the program, 
we are basically going to be pedal to the metal on that. And 
current plan--buy just of those two types is 436 of the IA and 
IB types. Additional interceptors will be of IIA and IIB.
    Mr. Franks. All right.
    General Chilton, in terms of deterring Iran in the 
immediate future, what do you think are our best strategies and 
our best capabilities to do that, deterring them from moving 
forward with their nuclear program, rather than defending them 
after?
    My great concern is that the Administration may have come 
to the conclusion at this point that Iran is going to become a 
nuclear nation and that their strategy is toward containment in 
the future.
    And I am terrified of that possibility. What opportunities 
do we have to deter Iran from gaining that capability in the 
first place on the table now?
    General Chilton. Well, this question is probably a little 
more appropriate for Dr. Miller. I will tell you, though, from 
my perspective, I have never--I have not seen any sense of 
giving up on any type of effort to encourage Iran not to 
develop a nuclear weapons program.
    I think the Administration is foursquare behind that 
effort, and it is a whole-of-government approach. It can't just 
be a military approach. I mean, if we look back, we could say, 
``Well, you know, our nuclear might did not deter North Korea 
from developing a nuclear capability. Our nuclear might did not 
deter Pakistan and India from developing capabilities.''
    Nation-states develop capabilities for their own reasons 
independent, I think, of our nuclear posture. It is not to say 
that our defense, both conventional strength in the region and 
our nuclear posture, is not an important element, but it is 
much broader than that, I believe.
    And I would turn it over to Dr. Miller to comment on that.
    Dr. Miller. I will just say very briefly that Iran had an 
opportunity in the negotiations that were undertaken over 
preceding months to come forward with and to agree to a 
proposal that I think was very reasonable with respect to the 
Tehran research reactor and with respect to coming into full 
compliance with the Non-Proliferation Treaty.
    As you know, sir, to date it has not taken those steps, and 
we are working with our allies and with others in the 
international community to really shift to what is, frankly, a 
pressure trap with respect to Iran and to look to try to change 
their incentives to bring themselves into compliance with the 
Non-Proliferation Treaty.
    At the same time, the development of capabilities for 
missile defense, for counter-WMD and the improvement of 
conventional capabilities of our partners in the region will 
both help to dissuade Iran from pursuing this path, because it 
will reduce the benefits of them moving forward with their 
nuclear program.
    And we want to continue to develop the capabilities of 
ourselves and of our partners to cope effectively with whatever 
capabilities Iran may pursue to discount their value.
    And this dissuasion, this different form of deterrence, is 
really a fundamental purpose of the types of capabilities we 
are developing today.
    Mr. Franks. Mr. Chairman, my time is up, but I am hoping 
that the gentleman might take for the record a question related 
to directed energy programs in the future.
    I mean, I meant to get to ABL. I think that the 
accomplishment there was pretty profound and that we would love 
to hear what your thoughts are for directed energy applications 
in the future.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
beginning on page 96.]
    Mr. Spratt. [Presiding.] Thank you, Mr. Franks.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General Chilton, as a follow-up to my question earlier this 
morning about missile defense training, you mentioned that 
C2BMC training is currently unassigned. Why is that the case? 
And do you have an opinion as to where that should be assigned 
for that type of training?
    General Chilton. I think we are at the phase in the program 
where it is maturing to the point that we need to--and the 
Missile Defense Executive Board (MDEB) has recognized that in 
our last meeting that it is time to go off and decide who 
should be assigned that authority.
    I don't have an opinion on who should take that, but 
clearly one of the services should do that, and the MDEB is 
taking a look at that, and we will make a--there will be a 
committee--there is a group studying that and they will make a 
recommendation back to the MDEB.
    But I think it is a matter of maturity of the system and 
the timing of it.
    Mr. Lamborn. Okay, thank you.
    And, Dr. Miller, I would like to ask you a question about 
declaratory policy. According to some press reports, there are 
White House principals who believe that the U.S. should declare 
that it will never be the first to use nuclear weapons and that 
it will only employ them against nuclear targets--for example, 
writing off the possibility of ever using them against chemical 
and biological types of WMD attacks.
    What is the current declaratory policy? And what would be 
the rationale for changing it?
    Dr. Miller. The President has been presented with a wide 
range of options for considerations with respect to declaratory 
policy. And I think it would be inappropriate for me to discuss 
each of those in--certainly, in open session today.
    Our current declaratory policy, I think, has accurately 
been characterized as calculated ambiguity. Since 1967 we have 
had a policy called our negative security assurance that says--
that has said that the United States will not use nuclear 
weapons against non-nuclear weapon states that are in 
compliance with the Nuclear Non-Proliferation Treaty.
    At the same time--so that is one side of it. At the same 
time, multiple administrations have broadly hinted at the 
possibility--and done it in different ways, but broadly hinted 
at the possibility of nuclear threats associated with other 
activities.
    So, for example, administrations have talked about the 
possibility of a devastating and overwhelming response to the 
use of weapons of mass destruction without necessarily ruling 
out explicitly the use of nuclear weapons in that response.
    Again, that has been described as calculated ambiguity. 
Others have different names for it, but that is what has been 
provided.
    And at this point, I can say, again, that the President has 
been provided with a number of options to consider for 
declaratory policy, and it has been a point of some significant 
amount of analysis, both with respect to its impact on those we 
wish to deter and its impact on potential perception by allies 
and partners whom we wish to assure of our commitment.
    Mr. Lamborn. Are you saying--and if you can't answer this, 
I would understand, but that he is anticipating--the President 
is anticipating making a change in policy?
    Dr. Miller. Sir, I am saying that the range of options is 
under consideration and staying with the current policy would 
be--is one of those options.
    Mr. Lamborn. Okay, thank you.
    Dr. Miller. The range is under consideration. That is 
really all I can say.
    Mr. Lamborn. Okay, I appreciate that. Thank you.
    Mr. Spratt. Gentleman yields back his time?
    Any further questions? Mr. Franks, did you have a question?
    Mr. Franks. Mr. Chairman, other than just asking them to 
take the ABL and just the entire subject of directed energy for 
the record. I would like to get some insight, because we 
really, really haven't had a hearing on that test result yet, 
and I would love to hear that. Thank you, sir.
    [The information referred to can be found in the Appendix 
beginning on page 96.]
    Mr. Spratt. Thank you very much for your testimony and for 
your responsive answers, and if you will also respond in due 
time to the questions for the record, and on some occasion we 
may take you up on the offer for a confidential hearing.
    Thank you very much indeed, and thank you for your service 
to our country.
    Dr. Miller. Thank you, Chairman.
    General Chilton. Thank you, sir.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]


=======================================================================


                            A P P E N D I X

                             March 16, 2010

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8228.001
    
    [GRAPHIC] [TIFF OMITTED] T8228.002
    
    [GRAPHIC] [TIFF OMITTED] T8228.003
    
    [GRAPHIC] [TIFF OMITTED] T8228.004
    
    [GRAPHIC] [TIFF OMITTED] T8228.005
    
    [GRAPHIC] [TIFF OMITTED] T8228.006
    
    [GRAPHIC] [TIFF OMITTED] T8228.007
    
    [GRAPHIC] [TIFF OMITTED] T8228.008
    
    [GRAPHIC] [TIFF OMITTED] T8228.009
    
    [GRAPHIC] [TIFF OMITTED] T8228.010
    
    [GRAPHIC] [TIFF OMITTED] T8228.011
    
    [GRAPHIC] [TIFF OMITTED] T8228.012
    
    [GRAPHIC] [TIFF OMITTED] T8228.013
    
    [GRAPHIC] [TIFF OMITTED] T8228.014
    
    [GRAPHIC] [TIFF OMITTED] T8228.015
    
    [GRAPHIC] [TIFF OMITTED] T8228.016
    
    [GRAPHIC] [TIFF OMITTED] T8228.017
    
    [GRAPHIC] [TIFF OMITTED] T8228.018
    
    [GRAPHIC] [TIFF OMITTED] T8228.019
    
    [GRAPHIC] [TIFF OMITTED] T8228.020
    
    [GRAPHIC] [TIFF OMITTED] T8228.021
    
    [GRAPHIC] [TIFF OMITTED] T8228.022
    
    [GRAPHIC] [TIFF OMITTED] T8228.023
    
    [GRAPHIC] [TIFF OMITTED] T8228.024
    
    [GRAPHIC] [TIFF OMITTED] T8228.025
    
    [GRAPHIC] [TIFF OMITTED] T8228.026
    
    [GRAPHIC] [TIFF OMITTED] T8228.027
    
    [GRAPHIC] [TIFF OMITTED] T8228.028
    
    [GRAPHIC] [TIFF OMITTED] T8228.029
    
    [GRAPHIC] [TIFF OMITTED] T8228.030
    
    [GRAPHIC] [TIFF OMITTED] T8228.031
    
    [GRAPHIC] [TIFF OMITTED] T8228.032
    
    [GRAPHIC] [TIFF OMITTED] T8228.033
    
    [GRAPHIC] [TIFF OMITTED] T8228.034
    
    [GRAPHIC] [TIFF OMITTED] T8228.035
    
    [GRAPHIC] [TIFF OMITTED] T8228.036
    
    [GRAPHIC] [TIFF OMITTED] T8228.037
    
    [GRAPHIC] [TIFF OMITTED] T8228.038
    
    [GRAPHIC] [TIFF OMITTED] T8228.039
    
    [GRAPHIC] [TIFF OMITTED] T8228.040
    
    [GRAPHIC] [TIFF OMITTED] T8228.041
    
    [GRAPHIC] [TIFF OMITTED] T8228.042
    
    [GRAPHIC] [TIFF OMITTED] T8228.043
    
    [GRAPHIC] [TIFF OMITTED] T8228.044
    
    [GRAPHIC] [TIFF OMITTED] T8228.045
    
    [GRAPHIC] [TIFF OMITTED] T8228.046
    
    [GRAPHIC] [TIFF OMITTED] T8228.047
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 16, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Dr. Miller. Representatives from OSD Policy and the Joint Staff are 
working with the House Armed Services Committee staff to schedule a 
briefing for professional staff members early in April 2010. That 
briefing will show the notional coverage footprints of each phase of 
the European Phased, Adaptive Approach. [See page 13.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. LARSEN
    General Chilton. The FY 2011 President's Budget (PB) begins a 
multi-year funding increase for critical plutonium and uranium 
infrastructure improvements needed to sustain stockpile credibility. It 
is critical that we complete these projects as soon as possible. NNSA 
plans call for achieving full operations at the Chemistry and 
Metallurgy Research Replacement, Nuclear Facility (CMRR-NF) and the 
Uranium Processing Facility (UPF) by 2022.
    Refurbishment of Plutonium Facility 4 (PF-4) in Technical Area 55 
(TA-55) is one of two critical components required to support plutonium 
processing. The FY11 NNSA Plutonium Sustainment ($190M) and TA-55 
Reinvestment Project ($20M) budget lines reflect needed PF-4 funding 
for safety improvements and configuration modification to improve 
manufacturing efficiencies.
    Completion of CMRR-NF is required to provide plutonium R&D and 
analytical capabilities in support of surveillance and stockpile 
management. It will also support nuclear non-proliferation and 
disarmament, arms control treaty monitoring, nuclear forensics and 
counterterrorism, and emergency response capabilities. The CMRR-NF FY11 
budget request of $225M funds design completion and begins 
construction. When complete, activities that were transferred from 
closed portions of the aging CMR facility to PF-4 will move to CMRR-NF. 
This should free space within PF-4 needed to meet stockpile management 
capacity requirements.
    The FY11 PB request of $115M for UPF at Y-12 funds design and 
construction planning activities. When complete, the UPF will support 
production, surveillance, and dismantlement of highly enriched uranium 
components. [See page 24.]
    Dr. Miller. Funding for nuclear weapons facilities infrastructure 
is in the National Nuclear Security Administration (NNSA) budget. The 
President's FY2011 budget request for the NNSA includes the following 
for Chemistry and Metallurgy Research Replacement (CMRR) construction 
specifically and total NNSA new facility construction projects for FY 
2010-2012:

----------------------------------------------------------------------------------------------------------------
                                        FY 2010  Appropriated                           FY 2012  Out-year Target
                                                 $M              FY 2011  Request $M              ($M)
----------------------------------------------------------------------------------------------------------------
CMRR Construction....................  $97.0M                  $225.0                  $305.0
Total for all NNSA Construction        $303.9                  $399.0                  $542.3
 Projects.
----------------------------------------------------------------------------------------------------------------

    The Department of Defense (DOD) has reviewed the budget information 
for the major NNSA construction projects. This budget starts the 
recapitalization of nuclear facilities that are essential to support 
DOD requirements.
    The NNSA will deliver its Stockpile Stewardship and Management Plan 
to Congress in spring, 2010. This document will identify a plan for 
evolving and sustaining the nuclear stockpile. [See page 24.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BISHOP
    General Chilton. Our entire strategic defense enterprise faces 
industrial base sustainment issues. Unfortunately, solid rocket motor 
industry concerns are more acute because of the significant expected 
reduction in defense and NASA demand for these propulsion systems in 
the coming years. As you know, when an industry faces reduced demand, 
substantial downsizing in capacity generally follows. As the Combatant 
Commander responsible for strategic deterrence, I am concerned with the 
prospect of an irrevocable loss of sufficient capacity to recapitalize 
systems which rely on solid rocket motor propulsion.
    The Navy and Air Force have taken different approaches to ensuring 
they have sufficient capacity to recapitalize their force structure. 
The Navy has stated confidence that their low-rate D5 missile 
production model, delivering a planned 12 missiles annually, will 
ensure production skills are protected into the future. While I cannot 
comment on how many Air Force motor production units is sufficient to 
sustain industrial capacity, the Air Force FY11 budget submission does 
not make a similar a long-term commitment to help preserve solid rocket 
motor production and related industrial capacity.
    The Air Force is developing a plan to protect sufficient capacity 
to recapitalize the Minuteman force, and I look to their FY12 POM 
submission to articulate and adequately resource such a plan to meet 
this critical need. [See page 30.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FRANKS
    Dr. Miller. The Airborne Laser (ABL) program was transitioned from 
a weapons acquisition program to a technology demonstration test-bed 
because of affordability concerns, and serious questions about the 
survivability and military utility of the ABL. On February 11, 2010, 
the ABL had a successful test where it destroyed a boosting ballistic 
missile. The successful test validates the decision to preserve the ABL 
test-bed program as a pathfinder for the Nation's directed-energy 
program.
    In the FY2011 budget request, directed energy research programs are 
funded for $98.7 million in the Missile Defense Agency budget. This 
includes funding for solid-state laser technology that is showing 
promise. Solid-state lasers would have much higher power than the 
current chemicalbased lasers in a much smaller package. This could 
allow laser technology to be used on more survivable and operationally 
practical platforms. [See page 37.]
    Dr. Miller. USSTRATCOM supports the continued research and 
development of directed energy projects, although the actual technology 
development is not a combatant command responsibility. For the Airborne 
Laser Test Bed (ALTB), USSTRATCOM stands ready to make recommendations 
for possible emergency activation of the ALTB if we believe it could 
prove effective in an emerging crisis.
    This revolutionary technology holds the most promise for boost-
phase intercept and to address different raid sizes, and it offers an 
offsetting strategy from a missile vs. missile approach, which is cost 
imposing. [See page 38.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2010

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Section 912 of the National Defense Authorization Act 
for Fiscal Year 2010 made permanent the pilot program that has allowed 
the Department to provide space situational awareness information to 
non-U.S. government entities. This statute also contained additional 
protections for those non-U.S. government entities that might provide 
data to the U.S. Given STRATCOM's responsibility for this so-called 
``commercial and foreign entities program,'' and for space situational 
awareness in general, could you provide the committee with an update on 
your efforts to implement this statute?
    General Chilton. USSTRATCOM assumed responsibility for sharing 
space situational awareness from the USAF in December 2009. We 
transitioned the existing services which consist of 1) catalog and 
satellite information posted to the www.space-track.org Web site, and 
2) SSA services under a sharing agreement that offers conjunction 
assessment support (predictions of close approaches between satellites) 
and launch support (closure windows to avoid collisions with orbiting 
objects, and early orbit satellite for launching satellites). 
Additionally, we offer additional services to entities which includes 
conjunction assessment support to satellite maneuver planning, re-
entering and deorbiting objects, and disposal and end-of-life 
operations. We also support anomaly resolution and interference 
resolution when it is in the national security interest, and when 
resources are available.
    We are evaluating the spectrum of services we offer, and the 
quality and utility of that information. We are in the process of 
finalizing efforts to provide more detailed conjunction assessment 
predictions that will enable satellite operators to refine their 
probability of collision calculations and afford them more information 
to support their decision to maneuver or not. A goal is to reduce the 
number of unnecessary satellite avoidance maneuvers conducted. 
Additionally, we submitted a request to the Chairman of the Joint 
Chiefs of Staff for the authority to negotiate and conclude SSA sharing 
agreements with non-U.S. governments. The AFSPC pilot program did not 
support requests from foreign governments. Our request is currently in 
interagency coordination. Once approved, we will engage with Allies and 
other nations and intergovernmental organizations to establish SSA 
sharing agreements to provide them services to promote safe 
spaceflight, and to receive SSA information in return to improve USG 
SSA.
    Mr. Langevin. What, in your view, are the most important steps the 
U.S. needs to take to improve our Space Situational Awareness 
capabilities?
    General Chilton. Our current Space Situational Awareness (SSA) is 
inadequate and thus impacts the ability of USSTRATCOM to predict, 
detect, and characterize orbiting objects and to attribute anomalies 
and attacks on space systems. We must implement several investment 
strategies to meet our SSA requirements and thus enable access to and 
freedom of action in this domain.
    We must first continue our investment in the critical legacy 
elements that include service life extensions, maintenance, and 
upgrades of the dedicated, collateral, and contributing sensors of our 
Space Surveillance Network. Secondly, USSTRATCOM will advocate for 
prudent investments in future capabilities like Space Based Space 
Surveillance, Space Fence, Space Surveillance Telescope, and Joint 
Space Operations Center (JSpOC) upgrades to ensure more accurate, 
timely, and operationally relevant SSA.
    Finally, we must continue working with satellite owners/operators 
who share orbital information on their satellites in order to automate 
the exchange of satellite positional information. We will leverage the 
JSpOC Mission System program to foster collaborative data-sharing 
across USG Agencies and Departments, our allies, and the commercial 
sector to enhance global coverage and awareness, which improves our 
ability to combine a space operational picture with effective C2 
systems.
    Mr. Langevin. Yesterday, the Department of Defense and the Office 
of Director for National Intelligence delivered to the committee an 
interim Space Posture Review. And you have testified that you are 
nearing the completion of the Nuclear Posture Review. Can you give us 
any insight into how, as you think about deterrence against 21st 
century threats, the Administration plans to achieve deterrence in 
space?
    Dr. Miller. Deterrence in space domain, as elsewhere, depends on a 
combination of denying the hoped for benefits and increasing the costs 
to a would-be attacker, and effectively communicating both capabilities 
and intent. The potential benefits of attacking U.S. space systems can 
be reduced, for example, by increasing systems' survivability and 
resilience, by having complementary capabilities (e.g., air-breathing 
systems), and being prepared to operate with denied or degraded access 
to space for some period of time.
    Achieving deterrence in space against 21st century threats requires 
a whole-of-government approach. The Administration is currently 
reviewing the existing (2006) national space policy. The resulting 
revision of this national policy will seek to synchronize the broad 
U.S. equities in space, spanning national security, diplomacy, science, 
and commerce.
    Building from this new national space policy, DOD and the Office of 
the Director of National Intelligence (ODNI) will develop a National 
Security Space Strategy (NSSS). The NSSS effort is intended to help us 
better align the ends, ways, and means to succeed in the congested, 
contested, and competitive space environment.
    Concurrent with NSSS development, DOD is continuing to develop 
concepts for best practices in space, and in May 2010 the Air Force is 
conducting a ``Schriever'' series war game that will include a 
simulated Code of Conduct to assess the operational implications of a 
voluntary Code. ``Schriever'' series outcomes will bolster NSSS 
development and address questions of rules of the road/codes of conduct 
and declaratory policy.
    Mr. Langevin. Specifically, can you talk about how we might deter 
others from holding our space systems at risk? How might we respond to 
attacks against our space assets, and how do we manage the risk of 
escalation?
    Dr. Miller. Deterring others from holding our space systems at 
risk, and managing escalation risk if the situation warrants it, 
require a whole-of-government approach. The Administration is currently 
reviewing the existing (2006) national space policy. The resulting 
national space policy will seek to synchronize the broad U.S. equities 
in space, spanning national security, diplomacy, science, and commerce.
    Building from this new national space policy, DOD and the Office of 
the Director of National Intelligence (ODNI) will develop a National 
Security Space Strategy (NSSS). This effort, building upon the findings 
of the interim Space Posture Review, will help us better align the 
ends, ways, and means to succeed in the congested, contested, and 
competitive environment of space.
    Deterrence in space domain, as elsewhere, depends on a combination 
of denying the hoped for benefits and increasing the costs to a would-
be attacker, and effectively communicating both capabilities and 
intent. The potential benefits of attacking U.S. space systems can be 
reduced, for example, by increasing systems' survivability and 
resilience, by having complementary capabilities (e.g., air-breathing 
systems), and being prepared to operate with denied or degraded access 
to space for some period of time.
    U.S. responses to any attacks on our space systems would, as in 
other domains, be consistent with the Law of Armed Conflict, including 
proportionality and discrimination. Such responses may or may not be 
limited to the space domain. The risk of escalation would have to be 
considered in the specific context on the conflict at hand.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY
    Mr. Thornberry. General Chilton, in your testimony you state that, 
``Increasing the safety, security, and long-term confidence in the U.S. 
nuclear arsenal remains a top priority.'' Last November, the Global 
Security Newswire quoted you as calling our current nuclear weapons 
complex infrastructure ``inadequate;'' and, citing last year's Perry-
Schlesinger Report, ``genuinely decrepit.'' Can you elaborate on your 
statements and discuss, in your view, the current state of the weapons 
complex and what you see as key challenges and shortfalls with complex 
infrastructure modernization?
    General Chilton. I agree with the Nuclear Posture Review conclusion 
that today's nuclear complex ``. . . has fallen into neglect.'' 
Facilities that process plutonium and uranium date back to the 
Manhattan Project era. They have emerging safety, security and 
environmental concerns and are subject to unplanned shutdown with no 
backup capability. In addition, the skilled human capital base has been 
underdeveloped over the last decade making it difficult to attract and 
retain the best and brightest scientists and engineers. A strong 
national commitment to sustaining warheads and nuclear technical 
capabilities is essential to counter these trends. A modern nuclear 
infrastructure and highly skilled workforce is consistent with our 
nation's arms control and nonproliferation objectives and can provide 
the capability to respond in a timely manner to technical or 
geopolitical surprise. Investments outlined in the 2011 President's 
Budget request will strengthen the science, technology and engineering 
base and begin to address physical infrastructure and human capital 
problems.
    Mr. Thornberry. General Chilton, U.S. Cyber Command was recently 
set up as a sub-unified component of U.S. Strategic Forces Command. 
What is the role of the U.S. military in cybersecurity, computer 
network attack, defense, and exploitation? When should America act 
under Title 50 authorities, and at what point Title 10? How does the 
War Powers Act affect the use of force in cyberspace? The U.S. 
military's #1 priority is homeland defense; should the military defend 
America's networks, even private networks?
    General Chilton. The military is responsible for the operation, 
security, and defense of Department of Defense networks. If directed by 
the President or Secretary of Defense, the military will support other 
executive agencies and departments in the defense of non-Department 
information networks and infrastructure. Further, the military is 
responsible for fielding offensive cyberspace capabilities, and as 
directed by the President or Secretary of Defense, employing those 
capabilities as traditional military activities.
    The armed forces leverage the intelligence community for all source 
intelligence, including computer network exploitation, in accordance 
with the National Intelligence Priority Framework and in support of 
combatant commander requirements. These foreign intelligence activities 
are reportable to Congress under Title 50. The terminology ``Title 10'' 
and ``Title 50'' are frequently used to describe the division between 
military operations and intelligence community activities. This is not 
an entirely accurate characterization, as Title 10, entitled ``Armed 
Forces'' and Title 50, entitled ``War and National Defense'' both 
contain wide-ranging laws covering their respective topics--both of 
which are directly connected to military operations. Neither Title 10 
nor Title 50 contain any specific reference to the use of cyberspace 
for cybersecurity, computer network attack, defense, or exploitation. 
As to the division of intelligence activity, Title 50 contains a 
section that broadly assigns different intelligence activities to the 
National Security Agency, National Geospatial-Intelligence Agency, 
National Reconnaissance Office and Defense Intelligence Agency (all DOD 
organizations). The section ends, however, noting ``the military 
departments maintain sufficient capabilities to collect and produce 
intelligence'' to meet the requirements of, among other needs, ``the 
requirements of the unified and specified combatant commands and of 
joint operations.'' Clarification of this division of authorities and 
responsibilities come from a variety of documents, perhaps most 
notably, Executive Order 12333, addressing U.S. intelligence 
activities, but also a number of other documents, including, among 
others, Department of Defense Instructions, Directives, and Manuals, 
the Unified Command Plan, and the Standing Rules of Engagement.
    The constitution gives the President authority for both sets of 
activities--military operations and foreign intelligence activities. In 
cyberspace there is the potential for some overlap, as ``computer 
network exploitation,'' an activity conducted by the National Security 
Agency is vital to conduct of military operations under ``computer 
network defense'' and also ``computer network attack.'' It is also very 
similar to the military mission of ``operational preparation of the 
environment.'' Dual hatting the commander of U.S. Cyber Command as the 
Director of the National Security Agency, has allowed close integration 
of these two organizations, allowing them to appropriately leverage 
each other to fulfill national security requirements.
    As to the War Powers Resolution, 50 USC 1541 et seq., by its own 
terms it ``will apply to the introduction of the United States Armed 
Forces into hostilities, or into situations where imminent involvement 
in hostilities, is clearly indicated by the circumstances, and to the 
continued use of such forces in hostilities or in such situations.'' 50 
USC 1541(a).
    Further, ``The constitutional powers of the President as Commander-
in-Chief to introduce United States Armed Forces into hostilities, or 
into situations where imminent involvement in hostilities is clearly 
indicated by the circumstances, are exercised only pursuant to (1) a 
declaration of war, (2) specific statutory authorization, or (3) a 
national emergency created by attack upon the United States, its 
territories or possessions, or its armed forces.'' 50 USC 1541(c).
    Pursuant to this Act, Congress passed the ``Authorization for use 
of military force against those responsible for attacks launched 
against the United States on Sept. 11, 2001.'' This authorization, 
pursuant to the War Powers Act, provides in relevant part: ``[t]he 
President is authorized to use all necessary and appropriate force 
against those nations, organizations, or persons he determines planned, 
authorized, committed, or aided the terrorist attacks that occurred on 
September 11, 2001, or harbored such organizations or persons in order 
to prevent any future acts of international terrorism against the 
United States by such nations, organizations or persons.'' This can be 
seen as Congressional approval of our military operations in our on-
going fight against terrorism. Current efforts in cyberspace play an 
important role in this struggle against our adversaries, a role that is 
consistent with the Congressional authorization under the War Powers 
Resolution.
    The Department of Homeland Security (DHS) is responsible for the 
defense of non-DOD Federal networks and coordinating with private 
industry and providers for the defense of the private networks. U.S. 
Strategic Command, and the Department of Defense, supports the defense 
of critical infrastructure networks in response to a request for 
assistance from DHS. That assistance could include technical assistance 
and recommendations for immediate defensive actions; as well as 
technical assistance and recommendations for more systemic mitigation, 
such as improvements in network configurations and improvements in 
information assurance measures or best practices.
    Mr. Thornberry. Dr. Miller, U.S. Cyber Command was recently set up 
as a sub-unified component of U.S. Strategic Forces Command. What is 
the role of the U.S. military in cybersecurity, computer network 
attack, defense, and exploitation? When should America act under Title 
50 authorities, and at what point Title 10? How does the War Powers Act 
affect the use of force in cyberspace? The U.S. military's #1 priority 
is homeland defense; should the military defend America's networks, 
even private networks?
    Dr. Miller. To first consider cybersecurity and network defense, 
the U.S. military will defend and secure its networks and systems to 
ensure that our forces are able to conduct their operations and 
missions with access to and use of cyberspace. The security of the U.S. 
military's networks requires a whole-of-a-government approach. We need 
to build robust relationships with interagency, industry, and 
international partners. DOD is working closely with the President's 
Cybersecurity Coordinator, and with our interagency partners as we 
develop a way forward on cyber issues. DOD is also collaborating with 
the private sector, through two main channels: the Enduring Security 
Framework and the Defense Industrial Base. The Enduring Security 
Framework is a public-private partnership between the Director for 
National Intelligence, DOD, the Department of Homeland Security, and 
the private sector; its goal is to provide a permanent forum for USG-
industry dialogue. The Defense Industrial Base offers another platform 
for public-private partnerships; it is a critical infrastructure 
partnership council established by DOD to facilitate coordination 
between USG critical infrastructure programs and private sector owners 
and operators.
    DOD conducts military operations and intelligence activities, 
including those in cyberspace, under Title 10 and Title 50 authorities, 
respectively. USCYBERCOM's mission focuses on Title 10 military 
activities: ``USCYBERCOM plans, coordinates, integrates, synchronizes, 
and conducts activities to: direct the operations and defense of 
specified Department of Defense information networks and; prepare to, 
and when directed, conduct full-spectrum military cyberspace operations 
in order to enable actions in all domains, ensure US/Allied freedom of 
action in cyberspace and deny the same to our adversaries.'' The 
National Security Agency's mission will not change as it will both 
continue to protect U.S. national security systems through information 
assurance and through the production of foreign signals intelligence 
information. The NSA capabilities will help enable USCYBERCOM to direct 
the operation and defense of the DOD information networks and conduct 
full-spectrum military cyberspace operations.
    Whether DOD acts under Title 10 or Title 50 depends upon the nature 
of the operation or activity being executed. DOD does not engage in 
covert action, as defined by 50 U.S. Code Sec. 413b(e). Assuming that 
all are otherwise legally available and appropriate options, it is the 
President's option to conduct appropriate military activities in 
cyberspace under Title 10 or Title 50 authorities, and/or to direct 
covert action under Title 50.
    Cyber capabilities are much like any other DOD capability or 
weapon, i.e., they may be employed in support of the deployment and 
operation of U.S. Armed Forces around the world. Their use alone, 
however, does not implicate the provisions of the War Powers 
Resolution.
    How and when the U.S. military acts is at the discretion of the 
President. The Department of Defense will provide the support directed, 
requested or required to defend the United States and its assets, 
whenever and wherever required, at the direction of the President. 
There are mechanisms in place to provide Defense Support to Civil 
Authorities, under which the Department is able to provide support 
requested by the Department of Homeland Security to help defend and 
secure those assets determined to be vital to National Security.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Our potential adversaries have shown the capability 
and willingness to deny our forces access to satellite communications 
either through the use of anti-satellite weapons or communications 
jamming. While anti-satellite technology is a very real threat, proven 
by China's January 2007 shoot down of one of their aging satellites, 
the technology to interfere with satellite communications is simple and 
readily available worldwide from any local Radio Shack store. What 
specific measures has STRATCOM taken to ensure missile defense command 
and control in a satellite communications denied environment? I 
understand if parts of your answer are classified, but I encourage you 
to share what you can with this committee today and in classified 
follow-ups.
    General Chilton.
    [The information referred to is classified and retained in the 
committee files.]
    Mr. Lamborn. In 2004, STRATCOM conducted a Military Utility 
Assessment (MUA) of the initial set of Ground-based Missile Defense 
(GMD) capabilities deployed in California and Alaska to determine their 
militarily effectiveness. How confident are you in current GMD system 
capabilities? Do you have any plans to conduct another MUA of the GMD 
system? If so, when do you expect to have the MUA completed?
    General Chilton. I am confident the current GMD system provides 
sufficient capability to protect the U.S. from a North Korean threat. 
Version 2009 (fifth version) of the Ballistic Missile Defense System 
MUA was completed 5 Aug 2009 and subsequently forwarded to SecDef via 
Chairman of the Joint Chiefs of Staff. Version 2010 (sixth version) of 
the Ballistic Missile Defense System MUA is in the final stages of 
staffing and expected to be completed by August 2010.
    Mr. Lamborn. What is our national and military policy if our space 
assets are attacked? How have military operational plans and 
contingency plans changed to reflect the possibility that those 
satellites may be unavailable during times of crisis and war?
    Dr. Miller. The United States considers space systems to have 
rights of passage through, and operations in, space without 
interference. This is consistent with U.S. law, applicable 
international law including the 1967 Outer Space Treaty, and existing 
(2006) national space policy. The United States views purposeful 
interference with its space systems as an infringement on its rights 
and will take those actions necessary to preserve its freedom of action 
in space. The United States reserves the right to take the full range 
of appropriate responses, including military action as consistent with 
the Law of Armed Conflict.
    The Administration is reviewing the 2006 national space policy and 
will update Congress accordingly on any changes. On 15 March 2010, the 
Department of Defense (DOD) provided Congress with an ``Interim'' Space 
Posture Review, which provided our initial thinking on national 
security equities in space.
    The DOD is addressing the possibility that space systems may be 
unavailable during times of crisis and war via its operational and 
contingency planning processes. Numerous war games, such as the 
``Schriever'' wargame series (the sixth in the series will be conducted 
in early May 2010) have shown that testing ourselves in a framework of 
diminished access to space is an important part of our strategy 
development. Each of the Services conducted a ``day without space'' 
study to understand the impact of losing critical space capabilities; 
the results were stark and highlight the importance of your question.
    The DOD is currently working with the office of the Director of 
National Intelligence to develop a National Security Space Strategy 
that will provide a basis for further delineating guidance for space-
related plans and programs.
    Mr. Lamborn. Do we have clear red lines or thresholds for attacks 
against our space assets? What are the merits of a declaratory policy 
that signals our intent and lays out consequences? Do you see merit in 
establishing international rules of the road and/or codes of conduct in 
space?
    Dr. Miller. The United States stated that space systems have rights 
at passage through, and operation in, space without interference. Our 
current national Space Policy states that our space capabilities are 
vital to our national interests, and we will preserve our rights, 
capabilities and freedom of action in space, including if necessary 
military action as consistent with the Law of Armed Conflict.
    There may be merits in employing voluntary, non-treaty approaches 
(e.g., international rules of the road and/or a code of conduct) for 
the space domain. Over the past two years, the United States engaged in 
dialogue with European experts regarding the European Union's proposal 
for a ``Code of Conduct for Outer Space Activities.'' In addition, the 
United States is participating in a multi-year study of ``long-term 
sustainability of space activities'' within the United Nations 
Committee on the Peaceful Uses of Outer Space. This study is examining 
the feasibility of voluntary ``best practice guidelines'' to help 
reduce operational risks to all space systems; it should serve as a 
valuable cooperation opportunity with established and emerging members 
of the space-faring community and with the private sector to enhance 
spaceflight safety and preserve the space environment for future 
generations. In addition, the Department of Defense (DOD) is continuing 
to develop concepts for best practices in space, and in May 2010 the 
Air Force is conducting a ``Schriever'' series wargame which will 
include a simulated Code of Conduct to assess the operational 
implications of a voluntary Code.
    The DOD is currently working with the office of the Director of 
National Intelligence to develop a National Security Space Strategy, 
which will further address questions of rules of the road/codes of 
conduct, and declaratory policy.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. The Air Force FY11 proposed budget only provides $46 
million for production of three Minuteman III (MMIII) motor sets as its 
``Warm-Line'' effort to sustain MMIII begins. The Air Force's current 
Five-Year Defense Plan (FYDP) only provides $10 million in FY12, and $0 
in FY13 for MMIII warm line. The imperiled Solid Rocket Motor (SRM) 
industry maintains that 6 motor sets for MMIII is the bare minimum 
required to sustain a viable MMIII warm line, which is fewer than the 
12 D-5 ICBM motors that are currently produced annually under the 
Navy's comparable warm-line effort. What is your opinion on what the 
proper level of Air Force funding is required in FY11 and in the FYDP 
to adequately sustain the MMIII weapons system and its SRM industrial 
base?
    General Chilton. U.S. Strategic Command has not done analysis to 
assess funding required to adequately sustain a viable SRM Warm-line. 
However, looking ahead, we do anticipate new challenges across the 
industrial base which could impact both the capacity and costs 
associated with supporting the Minuteman III in the future. Secretary 
Carter's AT&L-led task force study on the SRM industrial base will 
inform our investment strategy to ensure we can meet the nation's 
strategic propulsion needs.
    Mr. Bishop. Specifically, how many MMIII motor sets do you believe 
are minimally necessary to adequately sustain the warm line and the SRM 
industrial base?
    General Chilton. I do not have an opinion regarding what production 
level is adequate to sustain the SRM industrial base. However, given 
the complexity associated with solid rocket motor technology, we cannot 
afford to lose the expertise required to recapitalize our deterrent 
force in the future. Secretary Carter's AT&L-led task force study on 
this issue will inform our investment strategy to ensure we can meet 
the nation's strategic propulsion needs.
    Mr. Bishop. How important is maintenance of a viable SRM industrial 
base to the strategic and military interests of the United States, 
particularly in light of the Administration's decisions to terminate 
NASA's Constellation and Ares 1 and Ares 5 rockets, and last year's 
decision to also terminate the Kinetic Energy Interceptor (KEI) and 
Ground Midcourse Defense (GMD) ground-based missile interceptor 
programs, which, when combined with the end of the Space Shuttle 
program, the end of MMIII Propulsion Replacement program, and the total 
lack of any new ICBM modernization or follow-on programs, means that 
the U.S. does not have any large-scale defense or space SRM program in 
full-rate production for the first time in 50 years?
    General Chilton. Until the OSD/AT&L study is complete, it is 
premature to speculate on the extent of the impact to our industrial 
base and intellectual capital as the solid rocket motor industry 
adjusts to the Constellation Program cancellation and other significant 
program changes. We believe Secretary Carter's AT&L-led task force 
study on the SRM industrial base will inform our investment strategy to 
ensure we can meet the nation's strategic propulsion needs.
    Mr. Bishop. How does the Interior Department's recent decision to 
revoke uranium mining leases on public lands in the Western United 
States negatively impact the long-term strategic interests of the 
United States in maintaining a domestic supply of raw nuclear materials 
in its defense strategic stockpiles?
    General Chilton. Planning, analysis and forecasting of overall 
weapons related nuclear materials is provided by the National Nuclear 
Security Administration (NNSA). I am advised by NNSA that the recent 
Department of Interior decision to suspend issuing uranium mining 
leases on public lands in the Western U.S. for two years has no near-
term impact on the domestic supply of raw materials needed to meet 
national defense needs. Any future Interior Department decision to 
withdraw these or other lands for a longer period of time will need to 
be assessed for long-term impacts.
    Mr. Bishop. What is your estimate of the percentage of raw nuclear 
materials which will now have to be imported into the United States to 
meet national defense needs in the future because of the Interior 
Department's actions in revoking uranium mining leases on public lands 
in the Western United States?
    General Chilton. I am advised by the National Nuclear Security 
Administration (NNSA) that there will be no near-term change in the 
percent of raw nuclear materials imported into the U.S. to meet 
national defense needs. I understand the decision does not prohibit 
ongoing or future mining operations for valid pre-existing claims. Any 
future Interior Department decision to withdraw these or other lands 
for a longer period of time will need to be assessed for long-term 
impacts.

                                  <all>

</pre></body></html>
